<html>
<title> - EXAMINING THE DEPARTMENT OF HOMELAND SECURITY'S EFFORTS TO COUNTER WEAPONS OF MASS DESTRUCTION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






  EXAMINING THE DEPARTMENT OF HOMELAND SECURITY'S EFFORTS TO COUNTER 
                      WEAPONS OF MASS DESTRUCTION

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 7, 2017

                               __________

                           Serial No. 115-42

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-475 PDF                     WASHINGTON : 2018 









































                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
John H. Rutherford, Florida          Bonnie Watson Coleman, New Jersey
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
       Moira Bergin, Minority Subcommittee Staff Director/Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. James F. McDonnell, Assistant Secretary for Countering 
  Weapons of Mass Destruction, Director of the Domestic Nuclear 
  Detection Office, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     8
Mr. William Bryan, Acting Under Secretary, Science and Technology 
  Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    12
  Joint Prepared Statement.......................................     8
Mr. Chris P. Currie, Director, Emergency Management, National 
  Preparedness, and Critical Infrastructure Protection, Homeland 
  Security and Justice Team, U.S. Government Accountability 
  Office:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                Appendix

Questions From Chairman Daniel M. Donovan, Jr. for the Department 
  of Homeland Security...........................................    31
Questions From Honorable Peter T. King for the Department of 
  Homeland Security..............................................    34
Questions From Honorable James R. Langevin for the Department of 
  Homeland Security..............................................    35
Questions From Congressman James R. Langevin for Chris P. Currie.    36

 
  EXAMINING THE DEPARTMENT OF HOMELAND SECURITY'S EFFORTS TO COUNTER 
                      WEAPONS OF MASS DESTRUCTION

                              ----------                              


                       Thursday, December 7, 2017

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Daniel M. Donovan, 
Jr. (Chairman of the subcommittee) presiding.
    Present: Representatives Donovan, Payne, and Watson 
Coleman.
    Mr. Donovan. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony on the 
Department of Homeland Security's organization to counter 
weapons of mass destruction. I now recognize myself for an 
opening statement.
    Before I do, I would just like to recognize that today is a 
day that President Roosevelt said would go down in infamy. This 
is the anniversary of the attack of our country at Pearl Harbor 
in 1941. I would like us to all keep in mind the memory of 
those brave Americans who died that day.
    The Department of Homeland Security was created in response 
to the September 11 terrorist attacks and the threats to the 
homeland posed by al-Qaeda and other terrorist groups. Since 
that time, the scope of the threat has changed dramatically. It 
has become much more diverse and diffuse.
    We know that terrorist groups have long strived to employ 
chemical, biological, radiological, and nuclear materials in 
their attacks. There have been documented reports of ISIS using 
mustard gas in Syria as well as Sarin and chlorine gas used by 
the Syrian government itself. A plot to release hydrogen 
sulfide via an improvised chemical dispersion device was 
uncovered by Australian police.
    Kim Jung-un had his own step-brother assassinated using VX 
nerve agent. A laptop reportedly retrieved from an ISIS hideout 
in Syria in 2014 contained plans for weaponizing bubonic plague 
and a document discussing the advantages of using biological 
weapons. The rapid evolution of new biological techniques, such 
as CRISPR CAS-9, pose potential threats, as the new techniques 
can be used for both good and evil.
    North Korea, a state sponsor of terrorism, continues its 
nuclear tests and has expanded its missile program to such an 
extent that General Mattis has indicated that now they have the 
range to reach the United States. The North Korean Central News 
Agency stated that the ICBM can carry a ``super-large heavy 
warhead, which is capable of striking the whole mainland of the 
U.S.''
    This is the context under which we meet today. As the world 
of threats becomes more complex, it is incumbent upon the 
Department of Homeland Security to assess whether or not it is 
optimally organized to best confront the variety of threats it 
is expected to counter. Acting Secretary Duke determined that 
the Department is, in fact, not currently organized to best 
address these threats.
    As a result, on October 6, she notified the committee of 
her intent to use her 872 reorganization authority to establish 
a Countering Weapons of Mass Destruction, or CWMD office, 
headed by an assistant secretary for CWMD. This reorganization 
took effect earlier this week, and I am pleased that we are 
joined today by the assistant secretary and principal deputy 
assistant secretary for CWMD, along with the acting under 
secretary for Science and Technology, to discuss this new 
office.
    I will note that Acting Secretary Duke realized that her 
use of 872 authority will only take her so far and legislative 
changes are necessary to fully integrate the CWMD Office. This 
committee stands ready to work with the Department on this 
authorization, as we worked with the Obama administration on 
their proposal to establish a similar office.
    Last Congress, the House passed the Department of Homeland 
Security CBRNE Defense Act, authored by Chairman McCaul. Based 
on the Obama administration's proposal, the structure of the 
office created by the CBRNE Defense Act differs from the CWMD 
Office envisioned in the Department's current proposal.
    I look forward to hearing from our witnesses on how the 
current threat stream informed their proposal and how the 
organizational structure envisioned in the proposal will set 
DHS up for success in meeting its vital mission.
    [The statement of Chairman Donovan follows:]
              Statement of Chairman Daniel M. Donovan, Jr.
                            December 7, 2017
    The Department of Homeland Security was created in response to the 
September 11 terrorist attacks and the threats to the homeland posed by 
al-Qaeda and other terrorist groups. Since that time, the scope of the 
threat has changed dramatically--it has become much more diverse and 
diffuse. We know that terrorist groups have long strived to employ 
chemical, biological, radiological, and nuclear materials in their 
attacks.
    There have been documented reports of ISIS using mustard gas in 
Syria as well as Sarin and chlorine gas use by the Syrian government. A 
plot to release hydrogen sulfide via an improvised chemical dispersion 
device was uncovered by Australian police. Kim Jung-Un had his step-
brother assassinated using VX nerve agent.
    A laptop reportedly retrieved from an ISIS hide-out in Syria in 
2014 contained plans for weaponizing bubonic plague and a document 
discussing the advantages of using biological weapons. The rapid 
evolution of new biological techniques, such as CRISPR CAS-9, pose 
potential threats, as the new techniques can be used for good or evil.
    North Korea, a state sponsor of terrorism, continues its nuclear 
tests and has expanded its missile program to such an extent that 
General Mattis has indicated that they now have the range to reach the 
United States. The North Korean Central News Agency stated that the 
ICBM can carry a ``super-large heavy warhead, which is capable of 
striking the whole mainland of the United States.''
    And this is the context under which we meet today. As the world of 
threats becomes more complex, it is incumbent upon the Department of 
Homeland Security to assess whether or not it is optimally organized to 
best confront the variety of threats it is expected to counter.
    Acting Secretary Duke determined that the Department is, in fact, 
not currently organized to best address these threats. As a result, on 
October 6, she notified the committee of her intent to use her ``872'' 
reorganization authority to establish a ``Countering Weapons of Mass 
Destruction,'' or ``CWMD'' Office, headed by an assistant secretary for 
CWMD. This reorganization took effect earlier this week and I am 
pleased that we are joined today by the assistant secretary and 
principal deputy assistant secretary for CWMD, along with the acting 
under secretary for science and technology, to discuss this new office.
    I will note that Acting Secretary Duke realized that the use of her 
872 authority will only take her so far and legislative changes are 
necessary to fully integrate the CWMD Office.
    This committee stands ready to work with the Department on this 
authorization, as we worked with the Obama administration on their 
proposal to establish a similar office.
    Last Congress, the House passed the Department of Homeland Security 
CBRNE Defense Act, authored by Chairman McCaul. Based on the Obama 
administration's proposal, the structure of the office created by the 
CBRNE Defense Act differs from the CWMD Office envisioned in the 
Department's current proposal.
    I look forward to hearing from our witnesses how the current threat 
stream informed their proposal and how the organizational structure 
envisioned in the proposal will set DHS up for success in meeting its 
vital mission.

    Mr. Donovan. The Chair now recognizes my friend, the 
gentleman from New Jersey, the Ranking Member of this 
committee, Mr. Payne, for an opening statement that he may 
have.
    Mr. Payne. Thank you. Good morning.
    I apologize for my tardiness. But it looks like I got here 
right on time.
    Mr. Donovan. You did.
    Mr. Payne. OK. Well, I want to first thank the Chairman for 
holding today's hearing to assess the Department's latest 
efforts to establish a Countering Weapons of Mass Destruction 
office, CWMD. Great, another acronym. We needed one more.
    At the outset, I would like to express my disappointment 
that the Department chose to circumvent Congress and 
unilaterally organize its activities related to chemical, 
biological, radiological, and nuclear CBRNE defense pursuits to 
section 872 of the Homeland Security Act of 2002. I appreciate 
the Congressional authorization process takes time, but it also 
adds value.
    This committee has proven itself to be willing to partner 
when DHS has wanted to reorganize. In 2015, for example, the 
full committee, Ranking Member, and I supported legislation to 
consolidate the CBRNE activities despite warranted 
reservations, because DHS insisted its proposed realignment 
would improve mission capability.
    Earlier this year, this committee worked with DHS to draft 
important legislation to overhaul the National Protection and 
Programs Directorate, NPPD. To be clear, working with the 
administration to make DHS operate better is a bipartisan 
priority. Fortunately, this committee has passed legislation to 
repeal Section 872, so the Department's window of opportunity 
to use the Homeland Security Act to avoid Congress appears to 
be closing. Nevertheless, I urge you to work with the committee 
more collaboratively in the future.
    I would also like to express my concern that the 
reorganization was announced when DHS and impacted components 
lacked permanent leadership. I hope the witnesses here today 
will help me understand why the Department rushed to reorganize 
without Congressional authorization at a time when permanent 
leaders were in place in only one of the impacted offices.
    Finally, I look forward to learning more about how the 
proposal to reorganize CBRNE activities has evolved since 2015. 
Two years ago, I was disappointed when prior DHS leadership 
could not point to concrete benefits it anticipated as a result 
of consolidating its WMD defenses activities. Instead of 
articulating novel plans to leverage capabilities across the 
WMD mission space, DHS officials spoke in generalities about 
how reorganization advanced the then-Secretary's Unity of 
Effort initiative and created a central point of contact for 
stakeholders.
    Such vague explanations are little justification for 
setting a disruptive organization in motion. Additionally, I 
would be interested to learn how DHS engaged with internal and 
external stakeholders and whether such engagement informed its 
reorganization scheme. I look forward to working with the 
Department to ensure the successes of its activities in the WMD 
space.
    With that, I would like to thank the witnesses for being 
here today and look forward to their testimony. With that, Mr. 
Chairman, I yield back.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                            December 7, 2017
    I would like to express my disappointment that the Department chose 
to circumvent Congress and unilaterally reorganized its activities 
related to chemical, biological, radiological, and nuclear (CBRN) 
defense pursuant to Section 872 of the Homeland Security Act of 2002.
    I appreciate that the Congressional authorization process takes 
time, but it also adds value. And this committee has proven itself to 
be a willing partner when DHS has wanted to reorganize.
    In 2015, for example, the full committee Ranking Member and I 
supported legislation to consolidate certain CBRN activities--despite 
warranted reservations--because DHS insisted its proposed realignment 
would improve mission capability.
    And earlier this year, this committee worked with DHS to draft 
important legislation to overhaul the National Protection and Programs 
Directorate (NPPD).
    To be clear, working with the administration to make DHS operate 
better is a bipartisan priority. Fortunately, this committee has passed 
legislation to repeal section 872, so Department's window of 
opportunity using the Homeland Security Act to avoid Congress appears 
to be closing.
    Nevertheless, I urge you to work with the committee more 
collaboratively in the future. I would also like to express my concern 
that the reorganization was announced when DHS and impacted components 
lacked permanent leadership.
    I hope the witnesses here today will help me understand why the 
Department rushed to reorganize--without Congressional authorization--
at a time when permanent leaders were in place in only one of the 
impacted offices.
    Finally, I look forward to learning more about how the proposal to 
reorganize CBRN activities has evolved since the 2015 proposal. Two 
years ago, I was disappointed when prior DHS leadership could not point 
to concrete benefits it anticipated as the result of consolidating its 
WMD defense activities.
    Instead of articulating novel plans to leverage capabilities across 
the WMD mission space, DHS officials spoke in generalities about how 
the reorganization advanced the then-Secretary's Unity of Effort 
initiative and created a central point of contact for stakeholders. 
Such vague explanations are little justification for setting a 
disruptive reorganization in motion.
    Additionally, I will be interested to learn how DHS engaged with 
internal and external stakeholders and whether such engagement informed 
its reorganization scheme. I look forward to working with the 
Department to ensure the success of its activities in the WMD mission 
space.

    Mr. Donovan. The gentleman yields. Other Members of the 
subcommittee are reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            December 7, 2017
    On October 6, 2017, then-Acting Homeland Security Secretary Elaine 
Duke notified the committee that DHS was utilizing its authority under 
Section 872 of the Homeland Security Act of 2002 to establish the 
Office of Countering Weapons of Mass Destruction (CWMD). The Office was 
officially stood up earlier this week.
    This is not the first time the Department has used its Section 872 
authority to execute a reorganization without seeking Congressional 
authorization, nor is it the first time that the Department has sought 
to consolidate its activities related to countering chemical, 
biological, radiological, and nuclear (CBRN) threats--but I have 
concerns about both.
    Since its inception, DHS has undergone several disruptive 
reorganizations--many without Congressional authorization and some with 
mixed results. In July 2005, for example, Secretary Chertoff announced 
sweeping plans to realign DHS to improve mission performance.
    Part of Secretary Chertoff's proposal shifted preparedness 
functions from the Federal Emergency Management Agency (FEMA) to DHS 
headquarters with such disastrous consequences that Congress eventually 
restored them to FEMA. I raise this cautionary tale as a reminder that 
even the most well-intentioned reorganizations can have unintended 
consequences.
    In my experience, the rigorous vetting inherent in the 
authorization process can help Congress understand the resources and 
authorities the Department needs from the outset and root out or 
mitigate potential challenges associated with reorganizations.
    The authorization process can also clarify what problems a 
reorganization aims to resolve and how a realignment can improve 
mission capability.
    Toward that end, when this committee assessed DHS's proposal to 
establish a Chemical, Biological, Nuclear, Radiological, and Explosives 
(CBRNE) Defense Office last Congress, I never got a satisfying answer 
to two fundamental questions I asked: What problems will this 
reorganization solve? How will the proposed reorganization solve the 
problems?
    Without answers to these questions, it is impossible for the agency 
to justify potential disruptions to the workforce, direct resources 
appropriately, or measure results.
    I hope the witnesses here today have better answers for me, 
particularly since DHS acted unilaterally and the reorganization has 
already begun. The Department of Homeland Security plays an important 
role in the CBRNE defense space, and we cannot afford for a misguided, 
poorly-executed reorganization to undermine its ability to carry out 
its mission.
    Last Congress, I asked the Government Accountability Office to 
review the CBRNE reorganization proposal the Department submitted to 
Congress in 2015.
    Although we are here today to review a reorganization that is 
already under way, there are recommendations and best practices GAO 
identified in its 2016 report that remain relevant.
    Moreover, I will be interested to understand why the Department 
executed its section 872 authority prior to fully addressing all of the 
recommendations GAO made.
    Moving forward, committee Democrats are committed to ensuring that 
DHS effectively carries out its mission related to weapons of mass 
destruction threats, and that any Departmental reorganization focuses 
on capability building and preserving a talented workforce.

    Mr. Donovan. We are pleased to have a distinguished panel 
before us today on this important topic. Mr. Jim McDonnell 
serves as the assistant secretary for Countering Weapons of 
Mass Destruction and the director of the Domestic Nuclear 
Detection Office. Thank you for joining us, sir.
    Mr. William Bryan serves as the deputy under secretary for 
Science and Technology and is the senior official performing 
the duties of the under secretary for Science and Technology. 
Thank you for joining us, sir.
    Mr. Chris Currie serves as the director of emergency 
management, National preparedness, and critical infrastructure 
protection issues at the Government Accountability Office. Mr. 
Currie, thank you for joining us.
    We were supposed to be joined today also by Mr. Larry 
Fluty, the principal deputy assistant secretary for CWMD, but 
unfortunately an illness has prevented him from being here this 
morning. We hope he is on the road to recovery and will submit 
questions for him for the record.
    The witnesses' full written statements will appear in the 
record, and the Chair now recognizes Mr. McDonnell for a 5-
minute statement.

   STATEMENT OF JAMES F. MC DONNELL, ASSISTANT SECRETARY FOR 
    COUNTERING WEAPONS OF MASS DESTRUCTION, DIRECTOR OF THE 
DOMESTIC NUCLEAR DETECTION OFFICE, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. McDonnell. Good morning, Mr. Chairman, Ranking Member 
Payne, distinguished Members of the subcommittee. It is an 
honor to be here today to discuss Department of Homeland 
Security's work to counter the threat of terrorists using 
weapons of mass destruction, otherwise known as WMD. I 
shortened the acronym just a bit.
    Today as we discuss the creation of a new organization in 
DHS, it is on the anniversary of one of the two most 
catastrophic attacks in U.S. history, the surprise attack on 
Pearl Harbor, an attack that caused the United States to enter 
in a global war that would preserve the freedoms of our 
democracy. Like Pearl Harbor, 9/11 also began a war to preserve 
our way of life, a war against terrorism, which continues 
today.
    The purpose of the Countering WMD office will be to work 
every day to prevent another catastrophic attack, one using 
weapons or materials that have the potential to kill our 
citizens in numbers that dwarf previous attacks. In the last 
year, we have observed a credible increase in terrorist 
interest in using WMD against the United States. These threats 
come from all fronts--chemical, biological, radiological, and 
nuclear weapons. Certain WMDs once thought to be impossible for 
non-state actors, non-state groups to acquire are now closer to 
getting in the hands of terrorists.
    Today, as you heard in the committee's recent threats 
hearing, we know that non-state actors have information and 
technology at their disposal that make the threat much more 
dynamic, requiring more flexible and aggressive response.
    The CWMD office is an operational support office. Our 
mission is to assist the Department's front-line operating 
components, first responders and interagency partners. We will 
draw on the WMD expertise within the Department and across 
inter-agency to integrate expertise and operational support.
    In planning for the establishment of the CWMD office, Mr. 
Fluty and I reached out to each of the DHS operating 
components, interagency partners, and State and local officials 
to understand their needs and requirements. We are tailoring 
the CWMD organization to provide the best unified efforts and 
operational support possible. We are working closely with FEMA 
to ensure that actions taken by CWMD in support of first 
responders are coordinated and complementary. Another example 
of early integration and unity of effort into the larger 
Department is a recent move by OHA and DNDO to embed a core 
team of WMD expertise in the CBP National Targeting Center.
    DNDO and OHA leadership have been working closely with DOD 
as it transitions the CWMD mission from STRATCOM to SOCOM. We 
are in near daily contact with the Department of Defense and 
believe this partnership will benefit us in threat awareness 
and the adoption of new technologies and capabilities that can 
be developed into homeland capabilities.
    We are planning against smuggling pathway. Rather than 
limiting our detection of mission to a defense at the 1-yard-
line strategy, we plan to work through the DHS joint task 
forces and others to push out capability into known smuggling 
pathways. We want to deploy into the environment where we know 
bad guys are operating, be less predictable, and find the 
threat before it reaches our borders.
    The CWMD core leadership team brings decades of operational 
and executive leadership experience. I personally led the 
development of the WMD capability in United States Special 
Operations Command, and Dave Fluty has 23 years as a CBP 
officer, which includes a detail into the DNDO office when it 
was stood up.
    The entire CWMD team has a clear objective to safeguard 
America and understands their contribution to the DHS mission. 
The clarity of purpose and contribution to the homeland 
security mission addresses the feedback from our staffs, 
meetings, and survey results.
    I take seriously the feedback from Congressional oversight 
bodies, the GAO, and the DHS inspector general. These provide 
guidelines and roadmaps to improvement. I continue to meet with 
the GAO regularly. I support the findings of the blue ribbon 
panel on biodefense and a number of their recommendations, for 
example, the recommendation to replace BioWatch. I agree with 
this recommendation. We intend to develop and deploy a system 
that will be innovative and leverage business practices and the 
best practices already resident within DNDO.
    DNDO's solutions development process focuses on gap 
identification and the development of tangible operational 
requirements to drive R&D and expeditious deployment of 
operational capabilities which will close the gaps and reduce 
direct threats. This approach has been successful in the 
deployment of a nuclear detection architecture and will be 
utilized for a biodetection system that uses the latest 
technology and shares the information communications backbone 
that we are already deploying for the nuclear mission.
    We will optimize the integration of the DNDO's solution 
development process with the expertise that resides in the 
Office of Health Affairs. This will be done with our existing 
resources.
    WMD terrorism remains a pressing issue for our National 
security. It is with your support that we may build a world-
class organization within DHS focused solely on countering the 
threat of WMD terrorism. I look forward to working with you 
further on this matter, and I am happy to answer any questions 
you may have. Thank you.
    [The joint prepared statement of Mr. McDonnell, Mr. Fluty 
and Mr. Bryan follows:]
  Joint Prepared Statement of James F. McDonnell, Larry D. Fluty, and 
                             William Bryan
                            December 7, 2017
    Chairman Donovan, Ranking Member Payne, and distinguished Members 
of the Subcommittee on Emergency Preparedness, Response, and 
Communications, thank you for inviting us to speak with you today. We 
appreciate the opportunity to discuss the Department of Homeland 
Security's (DHS) work to bolster efforts to counter the threat of 
terrorist actors using weapons of mass destruction (WMD) against the 
homeland. As the leaders of the organizations involved in the 
reorganization of WMD functions into one office within DHS, we 
appreciate your interest in this matter. We also appreciate the support 
from former Secretary John Kelly and Acting Secretary Elaine Duke in 
pursuing a Countering Weapons of Mass Destruction (CWMD) Office aimed 
at elevating and streamlining DHS's role in the WMD mission and further 
unifying associated activities under one office.
                               background
    As Acting Secretary Elaine Duke stated in her September 27, 2017 
testimony to the Senate, our intelligence professionals have seen a 
renewed terrorist interest in WMD. The United States faces a 
significant danger from threat actors who could use chemical, 
biological, radiological, and nuclear (CBRN) agents to harm Americans 
or U.S. interests. Certain WMD, once viewed as out-of-reach for all but 
nation-states, are now closer to being attained by non-state actors. 
Terrorist groups are already using chemical weapons, using battlefield 
environments to test them, and may consider using such weapons in 
external operations. A WMD terrorist attack against the United States 
would have a profound and potentially catastrophic impact on our 
Nation, increasing our need to invigorate efforts to stop them and 
improve our own capabilities to defend, deter, and detect.
    Since the creation of the Department more than 15 years ago, DHS 
has lacked a focal point in the WMD threat space. Through Presidential 
directives and legislation, various WMD-related programs and projects 
were established within the Department and across multiple components. 
In some cases, components were established through Presidential 
directives and delegations of authority, but lacked full legislative 
authorization to carry out such vested responsibilities. This resulted 
in fragmented missions and uncoordinated activities across the 
Department, ultimately leading to a lack of strategic direction in this 
critical mission. Further, the current structure of CBRN functions 
within the Department resulted in a lack of visibility for the mission 
space, weak internal coordination, and disjointed interagency 
cooperation.
    DHS believes it is imperative to streamline and elevate its 
counter-WMD efforts. Multiple reviews in the last decade--both internal 
and external to the Department--have highlighted the Department's 
shortcomings in this space, as well as the need for a focal point on 
CBRN matters. For instance, 5 years ago, Congress required the 
Department of Homeland Security to study the issue, to rationalize its 
WMD defense efforts, and to report on whether a reorganization was 
needed. The previous administration conducted such a study and made an 
affirmative determination to pursue changes \1\ that resulted in the 
House passing the Department of Homeland Security CBRNE Defense Act of 
2015.\2\
---------------------------------------------------------------------------
    \1\ In the June 2015 ``DHS Chemical, Biological, Radiological, and 
Nuclear Functions Review Report'' to House and Senate Appropriations 
Subcommittees, the Department reviewed its CBRN programs' organization, 
operations, and communications pursuant to Congressional direction in 
the Joint Explanatory Statement (JES) and House Report accompanying the 
fiscal year 2013 Department of Homeland Security Appropriations Act 
(Pub. Law No. 113-6). In the JES, Congress identified the need to 
``elevate and streamline the Department's focus on efforts to address 
[CBRN] threats and deter and counter weapons of mass destruction.''
    \2\ H.R. 3875, Department of Homeland Security CBRNE Defense Act of 
2015, sec. 2 (Passed House amended (12/10/2015)). H.R. 3875 was 
referred to the Senate.
---------------------------------------------------------------------------
    This year, the Department again reexamined previous reviews, 
shortcomings in the mission space, and whether a re-organization would 
remedy such issues. As the new leadership team explored these issues, 
they took into consideration challenges associated with advancements in 
chemical and biological defense capabilities. Due to challenges in the 
chemical and biological defense space, and in light of the current 
threat environment, DHS determined that steps needed to be taken 
expeditiously to improve the effectiveness of our WMD defense 
functions. DHS leadership, including former Secretary John Kelly and 
Acting Secretary Elaine Duke, decided to establish a CWMD Office to 
elevate, streamline, and bolster an internal ``unity of command'' for 
CWMD capabilities within the Department.
                          current cwmd office
    As an initial step, the Department established the CWMD Office that 
unified the management structure and consolidated the following 
components and elements within the Department into one office: The 
Domestic Nuclear Detection Office (DNDO), the majority of the Office of 
Health Affairs (OHA), select elements of the Science & Technology 
Directorate (S&T), and select DHS Office of Strategy, Policy, and Plans 
(SPP) and DHS Office of Operations Coordination (OPS) functions and 
personnel.
The Domestic Nuclear Detection Office
    The CWMD Office subsumed DNDO in total with all current functions 
remaining intact. DNDO was chartered, in law and Presidential 
Directive, using an interagency construct to coordinate technical 
efforts across the U.S. Government to technically detect and protect 
against radiological and nuclear threats. DNDO conducts a holistic 
program of end-to-end efforts in technical nuclear detection and 
nuclear forensics, including planning, research and technology 
development, technology acquisition, and support for Federal, State, 
local, Tribal, and territorial operators in the field.
The Office of Health Affairs
    The CWMD Office also includes the majority of OHA, retaining 
biological and chemical defense functions, external coordination of 
Department medical preparedness and response activities, health 
incident surveillance, and health security intelligence and 
information-sharing functions. The CWMD Office is exploring 
enhancements to current biodetection technologies with the goal of 
identifying new technology that can reduce capability gaps in 
biological detection. Through non-reimbursable details, DHS transferred 
internal DHS workforce health and medical support functions from OHA to 
the DHS Management Directorate. By elevating the mission and unifying 
Departmental CWMD efforts, the CWMD Office is optimizing existing DHS 
resources to better protect the Nation against WMD threats.
    The CWMD Office, through the chief medical officer, is continuing 
to provide advice and support to DHS leadership and public and medical 
health officials Nation-wide to prepare for, respond to, and recover 
from threats to the Nation's health security. Ensuring the first-
responder community receives health-related expertise in a CBRN 
incident is vital. The CWMD Office is continuing to provide support for 
emerging health and medical issues of National significance and support 
for external-facing medical first responder coordination.
The Science & Technology Directorate
    The Department reassigned certain non-R&D functions from S&T to the 
CWMD Office, specifically the non-R&D functions performed by S&T 
related to chemical, biological, and integrated terrorism risk 
assessments and material threat assessments as required by Presidential 
Directive and the Project BioShield Act of 2004.\3\ This will harmonize 
terrorism risk assessment efforts across the WMD spectrum within one 
organization, and result in a rigorous requirements development 
process. We expect this realignment to improve risk-informed strategy 
and policy development and further enhance our Nation's ability to 
protect against WMD terror threats.
---------------------------------------------------------------------------
    \3\ Pub. Law No. 108-276.
---------------------------------------------------------------------------
The Office of Strategy, Policy, and Plans (SPP) and the Office of 
        Operations (OPS) Coordination
    Last, the Department is executing non-reimbursable details to 
assign a limited number of SPP and OPS personnel with WMD defense 
expertise to the CWMD Office. These details will allow the CWMD Office 
to leverage existing subject-matter experts that had previously been in 
other parts of DHS to support effective planning and policy for WMD 
threats.
                       proposed cwmd organization
    To fully integrate these capabilities, we are requesting this 
Congress' support for this effort, and we fully intend to work 
collaboratively with Congress to formalize this office, and ensure it 
is postured appropriately to confront the threat. The proposed CWMD 
Office would be responsible for advancing CWMD capabilities in DHS by 
taking a comprehensive approach to the spectrum of threats.
    During the reorganizational review of WMD-related support functions 
and activities, the Department found that components shared a number of 
related lines of effort that could be leveraged. For example, both DNDO 
and the Office of Health Affairs have acquisition activities that could 
be mutually leveraged. Conversely, the Department also found it lacked 
critical acquisition and requirements functions in its chemical and 
biological missions. For example, DNDO coordinates with the interagency 
on planning and analysis activities related to the Global Nuclear 
Detection Architecture. Utilizing DNDO's analysis and requirements 
generation capabilities for the chemical and biological defense mission 
across the U.S. Government is an opportunity to better accomplish this 
mission.
    The proposed CWMD Office would leverage best practices from across 
the Department to fill gaps in the chemical and biological defense 
functions by coordinating similar functions prescribed in law for DNDO. 
In particular, the CWMD Office will seek to approach chemical and 
biological defense activities much as is currently done for 
radiological and nuclear threats--from gap and requirement 
identification to operational deployment and support.
    With regard to the leadership structure of the proposed CWMD 
Office, the Office would be optimally organized by having a 
Presidentially-appointed assistant secretary to lead the organization 
and who would report directly to the Secretary. This leadership 
structure would empower the assistant secretary to coalesce and elevate 
CWMD matters to the Secretary in support of the DHS operating 
components and act as a DHS representative on relevant matters within 
the Federal interagency, as well as with external stakeholders at the 
State level, local level, and with private-sector partners. The 
assistant secretary would be supported by a principal deputy assistant 
secretary to serve as the deputy and an advisor on WMD issues.
    Another important part of the CWMD reorganization is the role of 
the chief medical officer within DHS. Congress authorized a chief 
medical officer within DHS in the Post-Katrina Emergency Management 
Reform Act of 2006 (Pub. Law 109-295) (``PKEMRA'').\4\ Congress vested 
the chief medical officer with primary responsibility within DHS for 
medical issues related to natural disasters, acts of terrorism, and 
other man-made disasters, including serving as the principal advisor to 
the DHS Secretary and the Federal Emergency Management Agency (FEMA) 
administrator on medical and public health issues, and coordinating DHS 
biodefense activities.\5\ Shortly thereafter, DHS reorganized to 
implement the various changes in PKEMRA as well as additional 
organizational improvements.\6\ Under the 2007 reorganization, the 
Department established the Office of Health Affairs, to be led by the 
chief medical officer. Since then, the Office of Health Affairs has 
been responsible for non-R&D chemical and biological defense 
activities, medical readiness, and component services functions.
---------------------------------------------------------------------------
    \4\ Section 516 of the HSA, codified at 6 U.S.C.  321e.
    \5\ Id.
    \6\ Notice of Implementation of the Post-Katrina Emergency 
Management Reform Act of 2006 and of Additional Changes Pursuant to  
872 of the Homeland Security Act of 2002 from Secretary Michael 
Chertoff to Senator Michael B. Enzi (Jan. 18, 2007).
---------------------------------------------------------------------------
    After re-evaluating the Department's WMD activities, leadership 
determined that the chief medical officer would be most effective in 
the CWMD Office supporting the assistant secretary. The chief medical 
officer will continue to serve as an independent medical advisor to the 
Secretary and other senior DHS officials, including the FEMA 
administrator. A permanent re-alignment would ensure the chief medical 
officer's expertise is regularly leveraged not only on chemical and 
biological issues, as is largely the case today, but also on 
radiological and nuclear matters. Moreover, this permanent relocation 
of the chief medical officer to the CWMD Office would ensure expertise 
is utilized on the full range of critical CWMD matters involving 
emerging WMD threats of National significance. Last the re-organization 
will ensure the Nation's front-line responders are able to prepare for 
and respond to all threats, for which the chief medical officer will 
provide advice, as appropriate.
Reorganizational Benefits
    The Department anticipates the proposed CWMD Office will offer the 
following improvements:
    1. Enhanced U.S. defenses against CBRN threats.--Integration of 
        CBRN elements will elevate and streamline DHS efforts to 
        prevent terrorists and other National security threat actors 
        from using chemical, biological, radiological, and nuclear 
        agents to harm Americans and U.S. interests. The Department has 
        long sought to bring unity of effort to this space, and in 
        doing so, it will be able to confront these challenges more 
        decisively. This includes providing better support to DHS 
        front-line components, which are responsible for keeping such 
        dangerous agents from entering the United States.
    2. Improved strategic direction.--The CWMD Office will help advance 
        the Department's strategic direction related to CBRN threats. 
        In particular, U.S. strategies on chemical and biological 
        defense have lagged behind the threat landscape. The CWMD 
        Office will help close this gap by better equipping DHS to put 
        in place effective chemical and biological defenses and 
        ensuring the Department is able to more effectively drive 
        forward planned strategies being developed in the interagency.
    3. Reform through sharing of best practices.--The CWMD Office will 
        better leverage related lines of effort, functional activities, 
        and administrative structures within the Department. This new 
        construct will allow for seamless sharing of best practices and 
        create new opportunities for reform. In particular, DNDO's 
        successful business model will help inform improvements to the 
        chemical and biological defense mission space.
    4. A clear focal point for CWMD within DHS.--The Department's 
        previous approach to CWMD created policy coordination 
        challenges, both internally and externally. With the changes 
        the Department plans to undertake, stakeholders in the 
        interagency, industry, and at the State and local level will be 
        able to better engage with DHS to deal with CBRN defense and 
        detection matters. For example, the CWMD Office will 
        collaborate closely with interagency partners such as the 
        Federal Bureau of Investigation's (FBI) Weapons of Mass 
        Destruction Directorate, which is the focal point for WMD-
        related matters within the FBI.
    5. Reduced overlap and duplication.--In the past, the Department 
        has been forced to reevaluate and terminate major CWMD-related 
        programs and acquisitions due to under-performance, cost 
        overruns, or ineffectiveness. In some cases, these failures 
        could have been avoided with better oversight, leadership, and 
        strategic planning. The CWMD Office will leverage best 
        practices and lessons learned to prevent such mistakes from 
        occurring in the future. Moreover, the reorganization offers 
        potential efficiencies, such as eliminating duplication of 
        effort in cross-cutting functions such as operational support 
        programs, and interagency and intergovernmental coordination.
                           change management
    Recognizing that the success of this reorganization is imperative, 
the Department has heeded GAO's prior recommendation to use, where 
appropriate, the key mergers and organizational practices identified in 
past reports and audits.\7\ Prior to and following the Department's 
decision to establish a CWMD Office, the Department actively engaged 
internally among DHS components and with external stakeholders.
---------------------------------------------------------------------------
    \7\ GAO Report to the Ranking Member, Committee on Homeland 
Security, House of Representatives, Homeland Security--DHS's Chemical, 
Biological, Radiological, Nuclear, and Explosives Program Consolidation 
Proposal Could Better Consider Benefits and Limitations, GAO-16-603 
(Aug. 2016), p. 18.
---------------------------------------------------------------------------
    DHS has undertaken a number of activities to ensure compliance with 
GAO-identified best practices in organizational changes. First, an 
Implementation Team was created with a specific task to engage an 
independent and objective party to monitor and examine the Department's 
reorganization and consolidation. Second, a methodology was developed, 
independent of management, to gather documentation and conduct 
interviews across Departmental components. Following the decision to 
pursue a re-organization, the independent party started interviewing 
employees at the Department to ensure a smooth transition and bolster 
employee engagement. The Department intends to continue to use GAO-
identified best practices as benchmarks by which we can measure 
progress for the current CWMD Office and the proposed Office.
    While we are excited to elevate the Department's CWMD mission, we 
have not forgotten about the men and women of DHS who work every day to 
ensure our Nation is secure. Departmental reorganizations require 
engagement among senior management as well as with staff at the working 
level. On numerous occasions, top leadership in the Department have 
hosted stakeholder meetings, joint employee town hall events, and 
developed internal and external communications strategies to create 
shared expectations with all relevant entities.
                               conclusion
    Chairman Donovan, Ranking Member Payne, and distinguished Members 
of this subcommittee, thank you again for your attention to this 
important mission and for the opportunity to discuss proposed efforts 
to enhance support capabilities across the CBRN spectrum. We look 
forward to further working with Congress and this subcommittee on fully 
integrating WMD capabilities to secure the homeland from WMD terrorism. 
With your help, we have full confidence that our Department can improve 
our strategic direction in this threat space and ensure our Nation is 
safer than ever before. We look forward to answering your questions.

    Mr. Donovan. Thank you, Mr. McDonnell.
    The Chair now recognizes Mr. Bryan for a 5-minute 
statement.

STATEMENT OF WILLIAM BRYAN, ACTING UNDER SECRETARY, SCIENCE AND 
  TECHNOLOGY DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Bryan. Good morning, Chairman Donovan, Ranking Member 
Payne, and the distinguished Members of the Subcommittee on 
Emergency Preparedness, Response, and Communications. Thank you 
for the opportunity to speak to you today.
    As you know, the Science and Technology Directorate is the 
research and development arm of the Department of Homeland 
Security. S&T's mission is to be an enabler. We enable 
effective, efficient, and secure operations across all homeland 
security missions by applying timely, scientific, and 
innovative engineering solutions through research, development, 
test and evaluation, and acquisition support.
    Since I came to S&T in May of this year, we have been 
doubling our efforts on satisfying the R&D needs and the 
requirements of our components. We are working hard to ensure a 
coordinated and robust program is in place to meet the needs of 
the DHS operator, as well as the first responders.
    Ever since S&T's inception, we have had a threat-based, 
varied, and intricate research portfolio in chemical and 
biological defense. One example is our portable vehicle 
decontamination system. The system deploys from the back of a 
pickup truck. It can clean and disinfect vehicles up to 80 feet 
long, including the undercarriages and even inside of the 
animal transport compartments. We transitioned this product to 
USDA, which is testing the wash tunnel and the autonomous 
robots. This project will have a major impact on helping 
contain the spread of diseases from vehicles moving from farm 
to farm during an outbreak.
    We also developed the first-ever licensed and approved 
foot-and-mouth disease vaccine for livestock and the companion 
diagnostic kit, now available for the National Veterinarian 
Stockpile and available for sale internationally. This 
diagnostic assay product is faster, more sensitive, and greatly 
enhances the preparedness by decreasing the response times to a 
foot-and-mouth disease incursion.
    Our bio-threat characterization program studies a range of 
biological agents that can be used against us now and in the 
future. The knowledge gained from this program feeds into the 
terrorism risk assessments, the TRAs, which we will be talking 
about more today, and the material threat assessments, the 
MTAs. It has improved DHS's estimates of consequence and risks.
    Currently, all chemical and biological R&D, including 
people and resources, will stay with S&T. Historically, the 
TRAs and the MTAs that are required by Presidential directive 
and the Project BioShield Act of 2004, were previously 
conducted by S&T. The non-R&D elements of these assessments 
such as the coordination with DHS's Office of Intelligence and 
Analysis for the threat awareness and the threat prioritization 
have now been transferred to the CWMD office, while the R&D 
elements will remain with S&T per the Secretary's guidance.
    S&T is already working with representatives from the CWMD 
office to identify the chemical and biological R&D requirements 
for validation and execution. S&T is committed to ensuring that 
R&D spending is driven by our components and the customers and 
that we maintain homeland-focused, while being more agile and 
responsive. We will leverage existing technologies when 
appropriate and clearly define a path for transfer and 
commercialization of those capabilities.
    Working together with CWMD, we will apply our science and 
engineering excellence to counter the threat of weapons of mass 
destruction against the homeland. That concludes my remarks, 
and thank you very much once again for having this opportunity.
    Mr. Donovan. Thank you very much, Mr. Bryan. The Chair now 
recognizes Mr. Currie for an opening statement of 5 minutes.

 STATEMENT OF CHRIS P. CURRIE, DIRECTOR, EMERGENCY MANAGEMENT, 
NATIONAL PREPAREDNESS, AND CRITICAL INFRASTRUCTURE PROTECTION, 
      HOMELAND SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Currie. All right, thank you, Chairman Donovan, Mr. 
Payne, Mrs. Watson Coleman. Appreciate the opportunity to be 
here today.
    The question of how DHS should be organized to combat 
weapons of mass destruction has come up numerous times since 
the Department's creation 15 years ago. We at GAO are not for 
or against the proposed reorganization. Those are decisions for 
DHS and for you as the Congress to make. Our work is focused 
more on the why and the how of the question.
    Our 2016 report evaluated DHS's own assessment of the 
benefits and tradeoffs of the reorganization, and maybe more 
important for today's hearing, how to implement it 
successfully. This committee understands well the need to fully 
assess such a change. You require that DHS better assess it in 
your recent DHS reauthorization bill you passed this year. We 
know at GAO from looking at decades of reorganizations and 
transformations in Government--some good, some bad--that 
agencies often learn the hard way how difficult these can be.
    Many of these lessons were learned from the creation and 
transformation of DHS itself over the last 15 years. The bottom 
line is that threat and mission need are clearly the most 
critical factors for this reorganization. However, if there is 
not an honest recognition of the organizational and 
administrative challenges and a plan to address it, it will be 
way more difficult than it needs to be.
    In our report last year, we looked into DHS's assessment 
and decision making that led to the reorganization proposal. 
What we found is that there was little actual assessment done. 
For example, DHS didn't fully assess problems that could occur, 
didn't fully consider the costs versus the benefits, and 
conducted very limited outreach at that time to external 
stakeholders.
    DHS actually disagreed with our recommendation at the time 
to go back and do these things. Their position then was a 
decision had been made and to go back and further assess it was 
not necessary. Frankly, this concerned us and didn't sound like 
a recipe for success.
    But I would like to shift from the past to the present. 
While we have not done the same in-depth audit of the current 
proposal over the last year that we did a year ago, we have 
reviewed the Secretary's notice and talked with DHS several 
times to better understand it. Clearly, there are some 
promising things in this proposal that the previous one lacked.
    There seems to be a realistic acceptance of past problems 
that need to be solved. An example of this is the need for a 
clear focal point in DHS to strengthen coordination and reduce 
fragmentation. This is something we have long recommended 
across numerous complicated National security areas, one of 
which is biodefense.
    Also, this effort looks to be driven from the components 
themselves as opposed to the top-down approach that was taken 
before from the Office of Policy. However, and emphasis on 
however, I am cautiously optimistic. As I alluded to before, 
the greatest mission need in the world won't overcome the 
organizational challenges to reorganization. In fact, the hard 
work begins once the reorganization actually begins. That is 
why it is so important that DHS apply best practices from prior 
reorganizations.
    Some of these will seem obvious, but the key is in the 
execution. Here are just some examples. Establishing a coherent 
mission and strategic goals and time frames to guide the 
transformation. This will be critical to help DHS meet its 
broad new goals for chem, bio, rad, and nuke defense and help 
internal and external stakeholders see that progress, as well.
    Establishing an implementation team and communications 
strategy for the transformation are also key. This will help 
build trust and make adjustments if they are needed as they go.
    The last example is also critical. Involving employees to 
obtain their ideas and gain their buy-in. DHS wants to improve 
morale through this reorganization and these components. 
However, morale doesn't go up just because organizations move 
around. Employees need to understand the vision, be consulted, 
and see their feedback incorporated into the change.
    The good news is that DHS recognizes the challenges--we 
have heard that already this morning--and the importance of 
these actions. But it will be very important for this committee 
to monitor the actual execution of the reorganization over the 
next few years. Of course, we are happy to help you with that, 
as well.
    That concludes my statement, and I look forward to your 
questions.
    [The prepared statement of Mr. Currie follows:]
                 Prepared Statement of Chris P. Currie
                            December 7, 2017
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee: Thank you for the opportunity to discuss the Department 
of Homeland Security's (DHS) plans to consolidate Chemical, Biological, 
Radiological, Nuclear, and Explosives (CBRNE) programs.
    Chemical, biological, radiological, nuclear weapons, and explosives 
also known as weapons of mass destruction (WMD), have the potential to 
kill thousands of people in a single incident. Over the past 4 years, 
the United States has faced significant CBRNE threats to its National 
security. North Korea's weapons of mass destruction program, according 
to the Quadrennial Defense Review 2014, is a growing and direct threat 
to the United States.\1\ Moreover, the use of chemical weapons in Syria 
in August 2013 and again in April 2017, and the emergence of 
nontraditional chemical agents highlighted the Nation's potential 
vulnerability to chemical and biological attacks. Additionally, the 
spread of scientific knowledge and capabilities by State and non-State 
actors to produce effective chemical and biological weapons further 
contributes to the Nation's threats. According to the Department of 
Homeland Security's (DHS) 2014 Quadrennial Homeland Security Review 
report, chemical, biological, radiological, and nuclear threats are 
enduring areas of concern and the consequences of such attacks are 
potentially high even though the likelihood of their occurrence is 
relatively low.\2\
---------------------------------------------------------------------------
    \1\ DOD, Quadrennial Defense Review 2014 (Washington, DC: Mar. 4, 
2014).
    \2\ DHS, Quadrennial Homeland Security Review Report, (Washington, 
DC: June 2014).
---------------------------------------------------------------------------
    The organizational structure of DHS's CBRNE functions has been 
considered and questioned for some time. Specifically, as noted by the 
House committee report accompanying the fiscal year 2013 DHS 
appropriations bill, across the U.S. Government, departments and 
agencies have combined their WMD programs into more centralized 
offices.\3\ Consolidations such as the Federal Bureau of 
Investigation's (FBI) reorganization of its WMD-related activities into 
a single WMD Directorate within its National Security Branch are 
intended to unify counterterrorism-related activities.\4\ To this end, 
Congress directed DHS to review and report on the Department's WMD 
programs, including potential consolidation of mission functions.\5\ 
DHS conducted its review, and in June 2015 provided a report of its 
findings to Congress, including a proposal to consolidate the agency's 
core CBRNE functions.
---------------------------------------------------------------------------
    \3\ H.R. Rep. No. 112-492, at 12 (2012).
    \4\ Several different FBI investigative divisions once conducted 
WMD-related activities. In July 2006, the FBI consolidated its WMD 
investigation and prevention efforts into a WMD Directorate within its 
National Security Branch. Comprised primarily of special agents, 
intelligence analysts, program managers, and policy specialists, the 
WMD Directorate designs training for employees of the FBI; other 
Federal agencies; State and local law enforcement organizations; and 
public health, industry, and academia partners. The WMD Directorate 
also provides National-level WMD intelligence support to FBI field 
divisions and to the larger U.S. intelligence community.
    \5\ See Senate explanatory statement accompanying the Consolidated 
and Further Continuing Appropriations Act, 2013, Pub. L. No. 113-6, 127 
Stat. 198 (2013), 159 Cong. Rec. S1547 (daily ed. Mar. 11, 2013)., See 
also H.R. Rep. No. 112-492, at 13-14 (2012).
---------------------------------------------------------------------------
    This testimony summarizes our August 2016 report, which discusses 
(1) the extent to which DHS's CBRNE consolidation proposal assessed the 
benefits and limitations of consolidation and (2) GAO's key practices 
from past organizational transformations that could benefit a CBRNE 
consolidation effort. This statement also focuses on recommendation 
follow-up activities related to the proposed CBRNE reorganization 
conducted through November 2017.\6\ In addition, we are conducting on-
going work for this committee on DHS's efforts to address chemical 
terrorism, which may inform DHS's consolidation efforts. That report is 
expected to be issued early next year.
---------------------------------------------------------------------------
    \6\ GAO, Homeland Security: DHS's Chemical, Biological, 
Radiological, Nuclear, and Explosives Program Consolidation Proposal 
Could Better Consider Benefits and Limitations, GAO-16-603 (Washington, 
DC: Aug. 2016).
---------------------------------------------------------------------------
    To perform the work for our previous report on DHS's CBRNE 
consolidation proposal, among other things, we reviewed DHS's June 2015 
Chemical, Biological, Radiological, and Nuclear Functions Review Report 
and supporting documentation such as DHS's Analysis of CBRNE 
Organizational Alternatives, written testimony from DHS officials on 
CBRNE threats, DHS's fiscal year 2017 Budget-In-Brief and fiscal year 
2017 Congressional Budget Justification. We also examined our prior 
work on identifying useful practices and lessons learned from major 
private and public-sector mergers, acquisitions, and organizational 
transformations and compared it against available documentation related 
to DHS's consolidation planning efforts.\7\ Further details on the 
scope and methodology for the previously-issued report are available 
within the published product. In addition, since the issuance of our 
August 2016 report through November 2017, we obtained updated 
information from DHS on actions taken to address our recommendations 
and additional steps taken to reorganize or consolidate CBRNE 
functions. However, we have not fully assessed all of DHS's efforts 
during this time.
---------------------------------------------------------------------------
    \7\ GAO, Streamlining Government: Questions to Consider When 
Evaluating Proposals to Consolidate Physical Infrastructure and 
Management Functions, GAO-12-542 (Washington, DC: May 2012).
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe the 
evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
                               background
    In June 2015, DHS delivered its CBRNE Functions Review Report to 
Congress which proposed consolidating the agency's core CBRNE functions 
(see fig. 1), into a new Office of CBRNE Defense.
    figure 1: department of homeland security (dhs) components with 
  chemical, biological, radiological, nuclear, and explosives (cbrne) 
                      responsibilities, as of june
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Note: In accordance with section 709 of the Homeland Security Act of 
2002, as amended by the National Defense Authorization Act for Fiscal 
Year 2017, DHS's Office of Policy is now the DHS Office of Strategy, 
Policy, and Plans. See Pub. L. No. 114-328,  1902, 130 Stat. 2000, 
2670-72 (2016); 6 U.S.C.  349.
    According to DHS officials, the agency's proposal to consolidate 
its CBRNE functions adopts the primary recommendation from a previous 
DHS study on CBRNE consolidation conducted in 2013. At that time, DHS 
assembled a review team to evaluate CBRNE alignment options and 
produced a report on its findings for the Secretary of Homeland 
Security. According to DHS officials, the alignment options from the 
2013 report were updated in 2015 based on the Secretary's Unity of 
Effort Initiative, to include transferring CBRNE threat and risk 
assessment functions from the DHS Science and Technology Directorate 
(S&T) to the proposed CBRNE Office, as well as including the DHS Office 
for Bombing Prevention from the National Protection and Programs 
Directorate.
    Since we reported on consolidation efforts in August 2016, DHS has 
provided notification to Congress of its plan to consolidate certain 
chemical, biological, radiological, and nuclear (CBRN) functions 
pursuant to the Secretary's authority under the Homeland Security Act 
of 2002 to reorganize functions of the Department.\8\ Specifically, in 
October 2017 DHS's Acting Secretary issued a memo notifying Congress 
that DHS plans to reorganize its CBRN functions, including workforce 
health and medical support functions into a Countering Weapons of Mass 
Destruction (CWMD) office.\9\ According to the memo, DHS intends to 
consolidate the following functions into a CWMD Office, headed by an 
assistant secretary who will report directly to the Secretary of DHS: 
(1) The Domestic Nuclear Detection Office (DNDO) in its entirety; (2) 
the Office of Health Affairs (OHA), with the exception of workforce 
health and medical support functions; (3) chemical and biological 
defense expertise from the DHS Office of Strategy, Policy, and Plans 
(PLCY) and the Office of Operations Coordination (OPS); and (4) certain 
non-Research and Development (R&D) functions from S&T. According to the 
memo, the reorganization will take effect on December 5, 2017.\10\
---------------------------------------------------------------------------
    \8\ See Pub. L. No. 107-296, Sec. 872, 116 Stat. 2135, 2243 (2002); 
6 U.S.C. Sec. 452. At the time of our August 2016 report, a bill had 
been pending before Congress that would have established within DHS a 
Chemical, Biological, Radiological, Nuclear, and Explosives Office. See 
H.R. 3875, 114th Cong. (1st Sess. 2015). Although passed by the House 
of Representatives and referred to the Senate Committee on Homeland 
Security and Governmental Affairs, the bill was not enacted into law. A 
more recent bill passed by the House of Representatives and referred to 
the Senate Committee on Homeland Security and Governmental Affairs--the 
DHS Authorization Act--would require the Secretary of DHS to, among 
other things, assess the organization and management of the 
Department's CBRNE activities and submit a proposed organizational 
structure to ensure enhanced coordination, effectiveness, and 
efficiency by providing strengthened CBRNE capabilities in support of 
homeland security. See H.R. 2825, 115th Cong. (1st Sess. 2017).
    \9\ During an initial review of CBRNE functions at DHS, agency 
officials determined that DHS's Office of Bombing Prevention should be 
included within the WMD consolidation option. As such, we use CBRNE to 
denote the inclusion of explosives functions covered by DHS Office of 
Bombing Prevention. Subsequent DHS consolidation planning does not 
include OBP, so we refer to the consolidation as CBRN, where 
appropriate.
    \10\ In accordance with section 709 of the Homeland Security Act of 
2002, as amended by the National Defense Authorization Act for Fiscal 
Year 2017, what was the DHS Office of Policy at the time we issued the 
August 2016 report is now the DHS Office of Strategy, Policy, and 
Plans.
---------------------------------------------------------------------------
   dhs considered several key factors, but had limited analyses and 
  documentation underlying the benefits and limitations of its cbrne 
                         consolidation proposal
    In August 2016, we found that DHS's June 2015 CBRNE report and 
related summaries provide some insights into factors considered for its 
consolidation proposal, but did not include associated underlying data 
or methodological information, such as how benefits and costs were 
compared or the extent to which stakeholders were consulted. According 
to DHS officials, DHS could not locate the underlying information 
associated with analyses that informed the consolidation proposal due 
to staff turnover. Without such underlying documentation, we could not 
fully determine the extent to which DHS considered the benefits and 
limitations of a CBRNE consolidation as part of its decision-making 
process.
    According to DHS's June 2015 CBRNE report and the summary documents 
provided to us during our previous review, the Department developed 
decision-making criteria, identified as ``desired outcomes'' and 
``near-term goals'' for its proposed reorganization, and consulted with 
DNDO, OHA, S&T, and leadership of other DHS components, the Office of 
Management and Budget (OMB), and National Security Council Staff. Also 
as we reported in August 2016, an official from DHS's Office of Policy 
stated that DHS consulted with the Executive Office of the President as 
well as Congressional staff on its consolidation plan. DHS considered 
five alignment options, as shown in figure 2, and provided a general 
assessment of the effects of reorganization on its CBRNE mission.\11\
---------------------------------------------------------------------------
    \11\ See Pub. L. No. 114-328, Sec. 1902, 130 Stat. 2000, 2670-72 
(2016); 6 U.S.C. Sec. 349.
---------------------------------------------------------------------------
figure 2: department of homeland security's (dhs) chemical, biological, 
  radiological, nuclear, and explosives (cbrne) alignment options and 
                        decision-making criteria
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In May 2012, we identified key questions for agency officials to 
consider when evaluating an organizational change that involves 
consolidation.\12\ Table 1 provides a summary of the key questions for 
evaluating consolidation proposals from this previous work and a 
summary of our previous assessment of whether documentation provided to 
us and interviews with agency officials indicated whether each question 
was addressed.\13\
---------------------------------------------------------------------------
    \12\ In order to determine the key questions to consider when 
evaluating physical infrastructure and management function 
consolidation initiatives, we identified and reviewed both GAO reports 
on specific consolidation initiatives that have been undertaken and 
relevant literature on public-sector consolidations. Further, we 
reviewed selected consolidation initiatives at the Federal agency level 
to gain insights into how agencies addressed these key questions 
representing both inter- and intra-agency activity. GAO-12-542.
    \13\ Our prior work on key questions for evaluating consolidation 
proposals includes a fifth key question related to change management 
practices which asks ``To what extent do plans show that change 
management practices will be used to implement the consolidation?'' A 
discussion related to change management practices during an 
organizational transformation follows later in this report. We 
therefore did not include the fifth key question in this table.

       TABLE 1.--KEY QUESTIONS FROM GAO'S PRIOR WORK ON EVALUATING
               CONSOLIDATION PROPOSALS AND OUR ASSESSMENT
------------------------------------------------------------------------
                                            Addressed in the Department
                                               of Homeland Security's
                                               Chemical, Biological,
              Key Questions                  Radiological, Nuclear, And
                                                 Explosives (CBRNE)
                                           Consolidation Decision-Making
                                                      Process?
------------------------------------------------------------------------
What are the goals of the consolidation?   Partially.
 What opportunities will be addressed
 through the consolidation and what
 problems will be solved? What problems,
 if any, will be created?
What will be the likely benefits and       No.
 costs of the consolidation? Are
 sufficiently reliable data available to
 support a business-case analysis or cost-
 benefit analysis?
How can the up-front costs associated      Partially.
 with the consolidation be funded?
Who are the consolidation stakeholders     Partially.
 and how will they be affected? How have
 the stakeholders been involved in the
 decision, and how have their views been
 considered? On balance, do stakeholders
 understand the rationale for
 consolidation?
------------------------------------------------------------------------
Source.--GAO-12-542.

    We found in our August 2016 report that DHS's June 2015 report to 
Congress and the supporting documentation we reviewed included an 
evaluation of some, but not all, key questions listed above in Table 1. 
These questions are important to consider when evaluating an 
organizational change that involves consolidation. Specifically, we 
found that DHS's consolidation proposal:
  <bullet> Identified strategic outcomes and goals and considered 
        problems to be solved, but did not fully assess and document 
        potential problems that could result from consolidation.
  <bullet> Did not conduct and document a comparison of benefits and 
        costs. While Congress directed DHS to include an assessment of 
        whether consolidation could produce cost savings, DHS had not 
        documented a comparison of benefits and costs for its 
        consolidation plan.
  <bullet> Did not fully identify or document consideration of up-front 
        costs. DHS considered potential up-front costs associated with 
        a CBRNE consolidation, but did not document these costs or how 
        they were considered during the reorganization decision-making 
        process.\14\
---------------------------------------------------------------------------
    \14\ The President's fiscal year 2017 budget submission for DHS 
included the CBRNE reorganization; however, the budget submission for 
the proposed CBRNE office did not indicate whether any of the costs in 
the submission include up-front costs associated with the 
implementation of the consolidation.
---------------------------------------------------------------------------
  <bullet> Conducted limited external stakeholder consultations. DHS 
        conducted limited external stakeholder outreach in developing 
        the consolidation proposal, and thus the proposal may not 
        sufficiently account for stakeholder concerns.
    As a result of these findings, we recommended that DHS complete, 
document, and make available analyses of key questions related to its 
consolidation proposal, including:
  <bullet> what problems, if any, consolidation may create;
  <bullet> a comparison of the benefits and costs of consolidation; and
  <bullet> a broader range of external stakeholder input including a 
        discussion of how it was obtained and considered.
    DHS did not concur with this recommendation, asserting, among other 
things, that our recommendation did not acknowledge the extent to which 
these questions were discussed both internally within DHS and 
externally with Congress and that DHS's decision to consolidate CBRNE 
functions had already been made which would make additional analysis 
redundant. However, as we stated in our August 2016 review, in 2013, 
Congress had directed DHS to include an assessment of whether 
consolidation could produce cost savings. However, as of our 2016 
report DHS had not documented a comparison of the benefits and costs 
for its consolidation plan. We subsequently closed the recommendation 
as not implemented. While we have not fully assessed DHS's most recent 
reorganization plans and any additional analyses conducted, we continue 
to believe that providing documented information and analyses used to 
assess the benefits and limitations of its consolidation plan would 
assist DHS in fully demonstrating how its proposal will lead to an 
integrated, high-performance organization. We closed this 
recommendation as not implemented upon receiving documentation from DHS 
in November 2016 stating that they did not intend to address it.
 key mergers and organizational transformation practices could benefit 
                dhs's cbrn consolidation implementation
    As we found in our August 2016 report, when implementing a CBRNE 
consolidation effort DHS could benefit from incorporating change 
management approaches such as the key practices and implementation 
steps derived from organizational transformations undertaken by large 
private and public-sector organizations identified in our previous 
work.\15\ Doing so would help ensure that DHS's consolidation 
initiative is results-oriented, customer-focused, and collaborative in 
nature. The Consolidated Appropriations Act, 2016, provided that none 
of the funds appropriated the fiscal year 2016 Act or any previous 
appropriations Acts may be used to establish an Office of CBRNE Defense 
until Congress authorized such establishment and, as of the end of 
fiscal year 2016, Congress had not approved the proposed 
consolidation.\16\ As a result of this restriction, DHS officials told 
us at the time of our August 2016 report that they had taken few 
concrete steps to plan for or move forward with the consolidation. As 
described earlier, DHS subsequently provided notification to Congress 
in October 2017 of its plan to consolidate certain CBRN functions 
pursuant to its reorganization authorities provided under the Homeland 
Security Act of 2002.
---------------------------------------------------------------------------
    \15\ GAO-12-542, GAO-03-669.
    \16\ See Pub. L. No. 114-113, div. F,  521, 129 Stat. 2242, 2515 
(2015) (providing further, however, that the Secretary may transfer 
funds for the purposes of executing authorization of the Office of 
Chemical, Biological, Radiological, Nuclear, and Explosives Defense). 
The Consolidated Appropriations Act, 2017, did not contain a provision 
precluding DHS from utilizing appropriated funds for the establishment 
of such an office. See Pub. L. No. 115-31, div. F, 131 Stat. 135, 404 
(2017).
---------------------------------------------------------------------------
    As DHS was formed, we reported in July 2003 on key practices and 
implementation steps for mergers and organizational transformations. 
The factors listed in Table 2 were built on the lessons learned from 
the experiences of large private and public-sector organizations.\17\
---------------------------------------------------------------------------
    \17\ To identify these practices, we interviewed a cross-section of 
leaders with experience managing large-scale organizational mergers, 
acquisitions, and transformations, as well as academics and others who 
have studied these efforts. We asked these individuals about their 
experiences managing mergers, acquisitions, and transformations and 
reviewed literature on the subject drawn primarily from private-sector 
mergers and acquisitions change management experiences to gain a better 
understanding of the issues that most frequently occur during such 
large-scale change initiatives. We also used our guidance and reports 
on strategic human capital management and results-oriented management.

    TABLE 2.--KEY PRACTICES AND IMPLEMENTATION STEPS FOR MERGERS AND
                      ORGANIZATIONAL TRANSFORMATION
------------------------------------------------------------------------
              Practice                       Implementation Step
------------------------------------------------------------------------
Ensure top leadership drives the       Define and articulate a succinct
 transformation.                      and compelling reason for change.
                                       Balance continued delivery of
                                      services with merger and
                                      transformation activities.
Establish a coherent mission and       Adopt leading practices for
 integrated strategic goals to        results-oriented strategic
 guide the transformation.            planning and reporting.
Focus on a key set of principles       Embed core values in every
 and priorities at the outset of      aspect of the organization to
 the transformation.                  reinforce the new culture.
Set implementation goals and a time    Make public implementation goals
 line to build momentum and shot      and time line.
 progress from Day 1.                  Seek and monitor employee
                                      attitudes and take appropriate
                                      follow-up actions.
                                       Identify cultural features of
                                      merging organizations to increase
                                      understanding of former work
                                      environments.
                                       Attract and retain key talent.
                                       Establish an organization-wide
                                      knowledge and skills inventory to
                                      exchange knowledge among merging
                                      organizations.
Dedicate an implementation team to     Establish networks to support
 manage the transformation process.   implementation team.
                                       Select high-performing team
                                      members.
Use the performance management         Adopt leading practices to
 system to define responsibility      implement effective performance
 and assure accountability for        management systems with adequate
 change.                              safeguards.
Establish a communication strategy     Communicate early and often to
 to create shared expectations and    build trust.
 report related progress.              Ensure consistency of message.
                                      Encourage two-way communication.
                                       Provide information to meet
                                      specific needs of employees.
Involve employees to obtain their      Use employee teams.
 ideas and gain their ownership for    Involve employees in planning
 the transformation.                  and sharing performance
                                      information.
                                       Incorporate employee feedback
                                      into new policies and procedures.
                                       Delegate authority to
                                      appropriate organizational levels.
Build a world-class organization.      Adopt leading practices to build
                                      a world-class organization.
------------------------------------------------------------------------
Source.--GAO-03-669.

    The practices outlined in our July 2003 report are intended to help 
agencies transform their cultures so that the Federal Government has 
the capacity to deliver its promises, meet current and emerging needs, 
maximize its performance, and ensure accountability. We found in our 
August 2016 report that DHS had not evaluated each of these practices. 
According to DHS officials, the agency was awaiting Congressional 
approval of the proposed consolidation before developing implementation 
steps. We recommended that if DHS's proposed CBRNE program 
consolidation is approved by Congress, DHS use, where appropriate, the 
key mergers and organizational transformation practices identified in 
our previous work to help ensure that a CBRNE consolidated office 
benefits from lessons learned from other organizational 
transformations. DHS concurred with the recommendation and stated in a 
November 2016 letter to Members of Congress that while DHS's CBRNE 
reorganization proposal had yet to be authorized by Congress, DHS 
remained committed to evaluating GAO's identified practices when 
evaluating its proposals. DHS acknowledged in its October 2017 memo to 
Congress that it plans to address this recommendation as part of its 
CBRN consolidation efforts by working with entities both internal and 
external to DHS to determine where it is appropriate to apply our key 
organization transformation practices.
    Given the critical nature of DHS's CBRN mission, considering key 
factors from our previous work would help inform a consolidation 
effort. The lessons learned by other organizations involved in 
substantial transformations could provide key insights for agency 
officials if they implement reorganization and attention to the factors 
we identified would improve the chances of a successful CBRN 
consolidation.
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions you may have at this time.

    Mr. Donovan. Thank you, Mr. Currie. I thank you all for 
your statements. I now recognize myself for 5 minutes for 
questions.
    In the past, this committee has done--and we will do it 
again--requesting technical assistance from the Department for 
the CWMD office. I was wondering if each of you could just 
comment on what legislative authorities you believe will be 
necessary to fully implement the proposal that we are speaking 
of today.
    Mr. McDonnell. Thank you, Mr. Chairman. I will start, take 
that first. We are very close to completing technical 
assistance language to get to the committee, and I commit to 
get that to you quickly.
    We are not seeking new authorities in the WMD space. Unlike 
the previous recommendation which was essentially a stovepiped 
approach to chem, nuke, bio, and explosives, we are looking at 
a much more integrated approach. So as we are doing this, we 
are taking, for example, the DNDO business model and seeking to 
apply those authorities across chem, nuke, and bio. So as we 
do, for example, gap analysis, we can be doing it across the 
battlespace.
    As you know, when we go talk to an NYPD officer, it is not 
one for rad-nuke, one for chem-bio, and one--it is the same 
officer. It is the same emergency response teams. So we are 
looking to extend our authorities across the battlespace rather 
than a stovepiped approach as we currently have.
    We do seek to codify the Secure the Cities program and 
expand that a little bit, and not in scope relative to cost, 
but in how we do that program and to reach out more into 
pathways and approaches into the target areas, rather than just 
focused on the target areas, but to also be able to address any 
of the priority mission as it comes up.
    Mr. Donovan. Thank you. Mr. Bryan.
    Mr. Bryan. Mr. Chairman, thank you for your question. 
First, let me add that we, within S&T, we already have the 
authority for oversight and coordination of S&T R&D across the 
Department. We specifically already have authority to do R&D in 
the space of chem-bio. Additional authorities that would help 
us not just within chem-bio, but others, just a couple requests 
that I would throw out to you that would enable us to do this 
better, one of them is the authority to do counter T&E 
authority for unmanned aerial systems. That seems to be what we 
believe could potentially be a system to use to actually employ 
any kind of toxic agents. Right now, we can't test UAVs or test 
that in a relative environment, so that is one authority that 
is something that would really help us out in the area of R&D 
to be able to--especially in this mission space.
    There is also other transactional authorities. We already 
have that, but it is on a yearly basis. So if we should get 
into any longer-term processes or projects, we would need that 
authority extended. So if that is something that we could have 
longer than 1 year at a time, either more permanent or a 
longer-term, would be beneficial to all of our programs within 
R&D to include the CWMD mission.
    Also, the low rate initial production authority, the LRIPs. 
I don't suspect this will be an issue with Jim and the work 
that they have been doing in DNDO. They understand acquisition. 
I don't suspect that will be an issue, but in some cases, 
having that low rate initial production authority during that 
transition from R&D to actual acquisition provides something 
into the field quickly, and if it is at a low rate, to be able 
to get it into the hands of the operator.
    Mr. Donovan. Would you include all of your recommendations 
in the technical report that we are asking for so that we make 
sure that we consider all those things that you just mentioned?
    Mr. Bryan. Yes, sir, we can do that.
    Mr. Donovan. Thank you. Mr. Currie, you have anything you 
would like to----
    Mr. Currie. Yes, sir. Two things that come to mind. One is, 
I mean, clearly, legislation is going to be needed for the 
Department to fully implement the vision of what they want this 
office to look like. What they are doing now is shuffling some 
deck chairs at the top within the organization.
    So I think in the legislation itself, I think it would be 
very important in addition to just the mechanics behind what is 
going to be changing and the offices that are going to exist, I 
think the committee's expectations and the Congress's 
expectations for how this office is going to operate and how it 
is going to work with the components and what you expect it to 
do--because if it is given a broad mission but without the 
authorities to actually do that across DHS and working with 
much larger components with more resources and more decision-
making authority, I think it is going to be difficult for it to 
establish its place.
    The other thing is, the second thing is, in addition to 
just the mechanics of how the organization is going to be 
changed is building in some of this criteria for how you want 
the organization to manage this transformation and how you want 
it to measure progress, I think will be really important to 
provide you the ability to actually oversee if it is doing what 
you want it to do.
    Mr. Donovan. Thank you very much. My time is expired. Being 
the dais is so crowded today, maybe we will get a second round 
of questions in.
    The Chair now recognizes my friend from New Jersey, Mrs. 
Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman, and thank 
you, Mr. Ranking Member, for yielding to me.
    Mr. McDonnell, first of all, let me say I hope Mr. Fluty is 
recovering quickly. Second, I thank GAO for what seems to be an 
encouraging prospect for us as we take on this very important 
issue of reorganization. However, I do have some questions.
    Mr. McDonnell, when the committee considered the 
Department's 2015 proposal to consolidate certain chemical, 
biological, radiological, and nuclear activities, Mr. Thompson, 
our Ranking Member, expressed concerns about the work force 
retention and the morale. The new CWMD--which I also 
supported--the new CWMD office raises similar concerns.
    Can you talk about what efforts you are undertaking to 
preserve work force morale? In particular, can you describe 
efforts to ensure that talented individuals from legacy offices 
understand the new career paths and opportunities they may have 
to advance?
    Mr. McDonnell. Thank you, Congressman Watson Coleman, and 
appreciate the question. We are essentially an intellectual 
property organization, so the people are the capability. We 
have within the Office of Health Affairs and DNDO a tremendous 
amount of expertise and talent that is unique in the Federal 
Government. Bringing those together is going to make us a much 
more powerful organization.
    As an example, I think in the morale space, the most 
important thing is communications, people understanding what is 
going on, and them feeling like they have an input in what the 
outcome is going to be. The approach that we have taken right 
now which has been a very limited change in the senior 
leadership, as the Ranking Member mentioned, enables a process 
that we envision taking several months with a lot of staff 
discussing how best to optimize this organization. The real 
goal is to make them feel like, at the end of the day, they are 
doing things to make America safe. They are not just coming 
into an office and churning and not feeling like there is a 
positive outcome.
    Mrs. Watson Coleman. Thank you. It is good to hear that, 
because as Mr. Currie----
    Mr. Currie. Currie.
    Mrs. Watson Coleman [continuing.] Stated, this whole buy-in 
from employees is so very important, considering the fact that 
you do have very high intellectual property. That is your 
asset, the people and their brains and their willingness to 
work together, but the morale has been a challenge.
    Also last Congress, I supported the bipartisan bill to 
consolidate your offices' activities, despite the reservations 
that we had about advancing the measure without seeing the 
forthcoming GAO assessment. I am wondering--and importantly, 
that analysis indicated--that DHS had not done all of its due 
diligence in its proposal.
    In October, Acting Secretary Duke notified Congress that 
DHS planned to unilaterally execute a similar reorganization, 
would implement GAO's recommendations as the reorganization was 
under way. Why not fully address those assessments, 
recommendations, prior to executing the reorganization? What is 
the reason for that?
    Mr. McDonnell. Thank you for that question, as well. I 
think it is important to note that we see this very much as a 
two-step process. The initial 872 notification was limited to 
just the executive leadership, so myself, as the assistant 
secretary, and Dave Fluty, who is currently running health 
affairs, will be the No. 2 person in the organization.
    We didn't want to get out in front of the committee and 
other stakeholders and come in with some big, elaborate 
reorganization. We just wanted to get in a position where you 
could have an executive that you could say, what is the plan 
for this? How are you working it?
    Mr. Currie's comments, there is nothing in there that I 
disagree with that he said. I personally had 87 meetings since 
the committee asked for technical assistance on this back in 
March. I have met with--the first thing we did the other day on 
the 5th, when this became official, was myself and my chief of 
staff walked over to the Office of Health Affairs and had an 
all-hands meeting.
    Mrs. Watson Coleman. Have you--I just need a yes-or-no on 
this, because I have one more really important question. Let me 
ask that question. First of all, I am going to want to know 
whether or not you did entertain the possibility of dealing 
with their recommendations and findings before actually getting 
this far, but second, tell me about the chief medical officer.
    In 2006, Congress authorized the provision of the council--
the Secretary--to the Secretary and FEMA administrator on 
public health issues, among other things. Can you confirm that 
this CMO is going to continue to have direct access to the 
Secretary to advise on these public health issues?
    Mr. McDonnell. Yes, ma'am. Mr. Chairman, could I use a 
little extra time to answer this?
    Mr. Donovan. Absolutely.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Mr. McDonnell. Thank you very much. Thank you, ma'am. The 
chief medical officer had a great deal of discussion about how 
we were going to do that when we started this back in March. 
Then-Adviser Duke, before she was deputy secretary, said one of 
the red lines for this organization was to ensure that the 
chief medical officer function was maintained as a critical 
component of the organization.
    The way we have chosen to do that, the chief medical 
officer will continue to be a Presidential appointee, very high 
stature, and have the gravitas in the interagency and will be 
the adviser, the principal adviser to--direct report to me 
organizationally, but much like the FEMA administrator during 
an emergency, the FEMA administrator can report directly to the 
President. We envision the chief medical officer being an asset 
for the Secretary, for the FEMA administrator, for working with 
Dr. Kadlec over at HHS, but for being the person that can get 
out there and represent us and make good strategic decisions 
when it comes to public health issues.
    The distinct difference from what was before with the 
Office of Health Affairs is the doctor is not going to be 
saddled with the administration of an organization. They are 
going to be free to be the chief doctor for the Department and 
have the freedom to be able to focus on that solely and not 
worry about day-to-day administration and all the other things 
that come with line management responsibilities.
    Mrs. Watson Coleman. Thank you. Thank you, Mr. Chairman.
    Mr. Donovan. The Chair now recognizes the gentleman from 
New Jersey, the Ranking Member, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. Mr. McDonnell, as I 
mentioned in my opening statement, I am concerned that the 
Department use its Section 872 authority to execute the CWMD 
reorganization. Should we expect the Department to pursue 
unilateral reorganizations until Section 872 of the Homeland 
Security Act is repealed?
    Mr. McDonnell. Sir, I have no direct knowledge of any other 
intention of using 872. In fact, the discussions leading up to 
the use of 872 on this one was a lot of deliberation and 
ensuring that it was extremely limited, because we knew that 
the sensitivities on the Hill relative to the use of that 
section of the Homeland Security Act. So we really were very 
cautious in the approach and wanted it to be very limited so we 
could respect the legislative process and the actual ultimate 
reorganization.
    Mr. Payne. Why did the Department initiate the 
reorganization under 872 instead of engaging with Congress?
    Mr. McDonnell. So we--prior to the notification--so I guess 
one way to address this best is, we were in a transition, 
bringing on a new leadership team. We had been requested 
technical assistance on the CBRNE legislation that had passed 
in 2015. We wanted to come in with a different approach.
    But we didn't at the same time want to build with the new 
organization--knowing that we were going to do a 
reorganization, build OHA as it had been before and DNDO as it 
had been before. But we immediately started thinking how we can 
do this to unify command and effort but not get too far out in 
front and take on new authorities that we don't already have.
    Mr. Payne. So I guess what you are saying to me is that to 
have engaged Congress would have taken you too much time, and 
you needed to come and engage us with--waste some of your time 
or----
    Mr. McDonnell. No, sir, absolutely not. If I implied that, 
then I apologize.
    Mr. Payne. Oh, no, it was no implication. I was just 
asking.
    Mr. McDonnell. No, sir.
    Mr. Payne. You know, and I say that because, you know--as 
you said, it is a new administration. You know, there have been 
some instances where this has played out across the 
administration and other departments, as well. It is a slippery 
slope. The Constitution of this great Nation was put in place 
for a reason. Congress has its role. To continually circumvent 
this body that represents the American people, it is very 
dangerous and a slippery slope.
    So I would just suggest to the administration that, you 
know, it tread lightly on this, because it is not the way it 
has been set up. I understand there are certain times with a 
Department such as Homeland where things have to be done in 
that manner, but it shouldn't be the precedent and it should 
not become the way things are done. I heard you say that you 
wanted to do things in a different way. I don't know if this is 
necessarily the best way.
    Mr. McDonnell. Thank you, sir. May I respond real quickly?
    Mr. Payne. Sure.
    Mr. McDonnell. One thing that I would like to highlight was 
in my opening statement and the Chairman mentioned, is the 
threat that is very real right now, and that is the prime 
driver for getting us organized in a way to be flexible and be 
able to respond and deal with the threats that are out there. 
But, again, we wanted to respect the committee and the 
legislative process and not do too much.
    Mr. Payne. OK. OK. Let's see. Also, in October 2017, DHS 
notified Congress that it planned to establish the Countering 
Weapons of Mass Destruction office. DHS sought a similar 
reorganization of its CBRNE activities in 2015. Can you walk us 
through the differences in the Department's current 
reorganization plan and the 2015 proposal?
    Mr. McDonnell. Yes, sir. The 2015 proposal was a stovepiped 
approach to the organization. In fact, if you look at page 6 of 
the GAO audit, it shows a series of blocks and the language in 
there as far as responsibilities for each officer essentially 
identical. So you have a bio block that has a policy 
responsibility, a chem block that has a policy responsibility.
    If you really--if you look across those stovepipes, it is 
sort-of hard to see any capacity-building, any enhancement in 
efficiencies, capabilities. What we have done is we have said 
we are going to do a horizontal integration. As an example, I 
had an all-hands meeting with our acquisition folks in DNDO. 
Had about 50 people in the room, and I said, so how many people 
are actually nuclear experts? Probably about 5 people raised 
their hand.
    Now, that means about 45 people in that room are 
acquisition, program planning, and execution experts. So if I 
get 5 people from OHA and plug them into that 45-person group, 
now I have got a 55-person organization that can do nuclear and 
biological product acquisition and development. We don't need 
to duplicate the DNDO model for biodefense. What we need to do 
is take advantage of the things that we already have that are 
very good, bring the exceptional talent from OHA.
    So OHA does not have the type of infrastructure and 
resources that DNDO does to manage big programs and deliver 
products and services, but they have a tremendous amount of 
individual expertise. So what we have done is instead of saying 
we are just going to make everything equal, so we are going to 
get talented people in the same room focused on a problem 
together.
    Mr. Payne. All right. Mr. Chairman, I apologize. I have 
gone way over my time, as I yield back.
    Mr. Donovan. No need to apologize. There is--if we engage 
you for--maybe we could do more question each, just because 
there are a few of us here and this is such an important issue. 
You started to describe, Mr. McDonnell, about the differences. 
I know the proposal of 2015 divided responsibilities, I guess, 
by threat rather than by function.
    Acquisition of resources was one of the reasons why I 
believe you stated it is better to do it by function rather 
than threat. Are there other reasons why this is a better 
method, better structure than the previous 2015 proposal?
    Mr. McDonnell. Yes, sir. So sort of moving left to right 
across the organization, we actually started threat analysis 
and understanding what the battlespace is, what adversaries are 
doing. As we both mentioned in our opening statements, there 
are terrorist organizations, ISIS, that wants to use chemical, 
nuclear, and biological.
    That expertise is one set of folks that we work with. So, 
for example, for NCTC, National Counterterrorism Center, they 
have a WMD organization. They don't have a chem, nuke, bio 
organization. The DOD is similar. The FBI, we work with the WMD 
division.
    So the people that we have to work with to identify the 
threat and think about how we are going to deal with the threat 
and start doing operational plans and support the components 
are combined. It isn't stovepiped in the rest of the 
organizations.
    As I mentioned, a first responder--a member of a bomb 
squad--I had the privilege of visiting the stabilization team 
up in New York City that the NYPD and Nassau and Suffolk County 
works with the FBI on. Those guys, they respond to a device. It 
doesn't matter what type of device it is.
    So we want to have a business model that provides support 
to the folks that are in the field and allows us to interact 
with other people. But it just doesn't make sense to duplicate 
everything and just have--you know, build another organization 
that is not necessary.
    Mr. Donovan. Wonderful, thank you. You visited us in New 
York during that. The other thing, Mr. Bryan, I have had the 
privilege of visiting was NUSTL and the work that they are 
doing in the lab in New York. How will their work support, 
supplement, enhance what you guys are doing at Science and 
Technology in this area of weapons of mass destruction?
    Mr. Bryan. First, Mr. Chairman, I do want to thank you and 
the committee for your support of the labs and your recognition 
of the importance that labs bring to this mission space.
    As you know, NUSTL provides a lot of products and services, 
primarily to the first responders, to help them in their role 
to protect, respond, prepare for homeland security threats. We 
also conduct a lot of tests, evaluations, and assessments of 
first-responder technologies using our full spectrum of 
laboratory capability and field testing services.
    Unique and special, I think, to the area of CWMD is we are 
the DHS--NUSTL, I should say, is also the DHS sponsor for R&D 
for the response and recovery part of the rad-nuke mission. So 
both NUSTL's test and evaluation mission, the R&D sponsorship 
piece of that will need to be closely coordinated with the CWMD 
office to ensure that we minimize any duplication of effort and 
ensure any seamless unity of effort.
    So I would defer to my colleague, if there are any other 
views he has on the utilization of NUSTL.
    Mr. Donovan. I thank you for your insight. I yield the 
balance of my time and ask my friend from New Jersey if he has 
one final question before we let you guys get out of here 
within the hour that I promised you.
    Mr. Payne. Yes, thank you, Mr. Chairman. Mr. Currie, the 
last time DHS sought to consolidate its CBRNE activities, many 
touted potential cost savings resulting from efficiencies. From 
your previous review, do you anticipate any cost savings 
associated with this kind of reorganization?
    Mr. Currie. In short, no. When we looked at it in the 
past--well, the problem was there was no cost-benefit analysis 
done, so there was really no data and information to see 
whether there was going to be cost savings. There were high-
level statements made in certain documents about streamlining 
and cost savings, but we didn't see any data that backed that 
up.
    Mr. Payne. OK. Can you describe some of the potential costs 
agencies incur as they undertake reorganizations?
    Mr. Currie. Sure. Well, a lot of it tends to be 
administrative sometimes, so sometimes there is a conception 
that when you put organizations together, that somehow they are 
going to immediately streamline, but sometimes that is the 
opposite. When you put organizations together, administratively 
especially at first sometimes you need more support to support 
more people, for example, in your human capital office or more 
IT services. Or if you expand your footprint, where people are 
located in buildings, you have to expand your support structure 
for that.
    So sometimes we have seen in prior reorganizations that 
when there is an assumption there will be no cost, just because 
existing organizations come together, that is not always true.
    Mr. Payne. OK. All right, well, Mr. Chairman, since you 
promised them that we would be done in an hour, I will yield 
back.
    Mr. Donovan. Thank you, Mr. Payne. I want to thank our 
witnesses, first of all, for your service to our Nation. You 
are charged with protecting our homeland. There is no greater 
cause than the sacrifices in time and probably compensation and 
other matters in which you and your families are willing to 
ensure for the safety of our families. It is much appreciated. 
I would also like to thank you for your valuable testimony 
today and for answering our questions in a forthcoming manner.
    The Members of the subcommittee may have additional 
questions for our witnesses, and we will ask that you respond 
to these in writing. Pursuant to committee rule VII(D), the 
hearing record will remain open for 10 days. Without objection, 
the subcommittee now stands adjourned.
    [Whereupon, at 10:57 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

 Questions From Chairman Daniel M. Donovan, Jr. for the Department of 
                           Homeland Security
    Question 1. The previous administration's proposal included 
``explosives'' and moved the National Protection and Programs 
Directorate's Office for Bombing Prevention into the consolidated 
office.
    Why did you determine not to include explosives in the Countering 
WMD Office?
    Question 2a. What outreach have you done to other DHS offices and 
components on this proposal?
    Question 2b. What outreach have you done to external stakeholders, 
as recommended by GAO?
    Answer. The CWMD Office intends to be fully engaged with DHS 
components and interagency partners in the Counter-Improvised Explosive 
Device (C-IED) mission space. Other DHS components, including (but not 
limited to) the Transportation Security Administration (TSA) and the 
United States Secret Service (USSS), and Customs and Border Protection 
have robust explosives detection capabilities and technical expertise 
in their respective mission spaces. It was decided that explosives 
detection functions that currently exist within either DHS components 
or National Protection and Programs Directorate (NPPD) would not be 
transferred to the new CWMD Office. Specifically, the NPPD Office for 
Bombing Prevention (OBP) was not transferred to the CWMD office as 
their mission is primarily focused on training and outreach to critical 
infrastructure owners and operators. CWMD works closely with the FBI 
Critical Incident Response Group (CIRG), which houses the FBI Counter-
IED programs, and with Department of Defense Special Operations Command 
(DOD/SOCOM) and the Defense Threat Reduction Agency (DTRA) on C-IED 
planning and response programs. The Counter-WMD programs in both the 
Federal Government and at State and local agencies build on existing C-
IED efforts as a baseline, enabling a natural support role for the CWMD 
Office.
    Question 3. This CWMD Office is being established based on the 
rising WMD threat. However, the President's fiscal year 2018 budget 
request sought to eliminate a number of programs and laboratories 
working to address these threats.
    As you are working to craft the fiscal year 2019 budget request, 
can you assure us that the request we receive will reflect the severity 
of the threat you described?
    Answer. While the Department is unable to comment on specific 
details during the pre-decisional/deliberative phase of the fiscal year 
budget request, we look forward to providing a Classified briefing to 
better illuminate key details on the threat as well as DHS CWMD actions 
to counter the threat once the budget is submitted to Congress.
    DHS CWMD developed the fiscal year President's budget request for 
all program areas within the DHS CWMD mission space, and have spoken 
with the S&T Directorate's Chemical-Biological Defense Division 
regarding the CWMD Office's requirements, as developed through the use 
of the WMD Requirements Oversight Council (WROC). The WROC is an 
executive-level body that is chaired by the assistant secretary for 
CWMD, with representatives from all of the operating components and DHS 
S&T. We look forward to briefing you on the DHS CWMD Office budget 
request within the President's fiscal year budget request.
    Question 4. While we are aware of terrorist's interest in using, 
and actual use, of chemicals in attacks, the budget for chemical 
defense programs at DHS is significantly less than those for biological 
or nuclear programs.
    How will the establishment of the CWMD Office help to enhance the 
Department's programs to address the chemical threat?
    Answer. To better understand and address chemical threats, the CWMD 
Office will leverage key aspects of the legacy Domestic Nuclear 
Detection Office (DNDO) business model as well as authorities of the 
legacy Office of Health Affairs. Similar to DNDO's success in the 
development and deployment of domestic nuclear detection capabilities 
and support for our Federal partners' missions regarding global nuclear 
detection capabilities, the new CWMD Office intends to support Federal 
partners detecting biological and chemical weapon threats before they 
reach our shores through assessing the operational requirement for, 
then acquiring and deploying, needed chemical detection equipment, as 
appropriate.
    The CWMD Office has already taken measures to counter an emerging 
chemical threat challenge, and we would welcome the opportunity to 
provide a Classified briefing to the committee. It is noteworthy that 
the first significant action by the new CWMD Office is focused on the 
chemical threat. The ability to do this is based on leveraging the 
expertise brought together under the limited CWMD reorganization 
established by the Secretary.
    Question 5. From a management perspective, DNDO and OHA each employ 
different methods of managing their human capital, acquisitions, 
information technology, and financial needs.
    What efficiencies will be gained when these management functions 
are combined?
    Answer. DHS has identified significant cost avoidances that can be 
realized by merging DNDO and OHA functions into the new CWMD Office. 
For example, rather than having two offices individually managing human 
capital, acquisitions, information technology, and financial needs, the 
horizontal integration of the CWMD Office would create inherent 
efficiencies. In addition, by leveraging legacy DNDO's successful 
requirements, resource allocation and program acquisition model, 
acquisitions will leverage the programmatic expertise and governance 
that has been successfully implemented in legacy DNDO. The CWMD Office 
anticipates similar efficiencies with human capital, information 
technology, and financial management reporting to the consolidated 
enterprise services organization.
    Question 6a. This subcommittee has held numerous hearings on the 
BioWatch Program and we have been promised, for years, that the Office 
of Health Affairs and Science and Technology Directorate are working 
together to field updated, more effective technology. However, to date, 
we don't have much to show for it.
    What is the status of OHA and S&T's work to deploy more effective 
biodetection systems?
    Answer. The new CWMD Office is committed to replacing the BioWatch 
system that was deployed in 2003 with a new state-of-the-art system 
that leverages modern detection technology and data analytics. CWMD is 
working closely with DHS S&T, DOD DTRA and SOCOM, and others to 
identify possible Commercial Off-the-shelf Technologies (COTS) that can 
be used to replace the current BioWatch system. In the future, the WMD 
Requirements Oversight Council (WROC) will develop the requirements for 
S&T's work pertaining to biodetection technologies that meet the 
operational needs of DHS stakeholders. We look forward to keeping the 
committee advised on this work as progress is made.
    Question 6b. How will the CWMD Office help address some of the 
shortcomings of BioWatch?
    Answer. As described in response to Question No. 5, the CWMD Office 
is committed to replacing the BioWatch system that was deployed in 2003 
with a new state-of-the-art system that leverages modern detection 
technology and data analytics. CWMD is working closely with HHS, DOD, 
and others to identify possible Commercial Off-the-shelf Technologies 
(COTS) that can be used to replace the current BioWatch system.
    To this end, DHS is actively working to identify technological 
capabilities that enhance the ability to detect biological attacks in a 
timelier manner and at a fraction of the present cost per location. The 
CWMD-chaired WMD Requirements Oversight Council (WROC) will generate 
R&D requirements that address some of the technical and operational 
shortcomings of BioWatch.
    Question 7. Both the Science and Technology Directorate and the 
CWMD Office will conduct research and development to combat weapons of 
mass destruction--S&T for chemical and biological threats and CWMD for 
radiological and nuclear threats.
    How will CWMD and S&T ensure the coordination of the various types 
of research and development?
    Answer. The CWMD Office-chaired WMD Requirements Oversight Council 
(WROC) will manage the process for prioritizing R&D and program 
acquisition for the CWMD mission space. S&T and DHS operating 
components will participate in the WROC and be accountable for meeting 
the requirements specified in the WROC process.
    Question 8a. In the President's fiscal year 2018 budget request, 
the administration proposed eliminating NUSTL in addition to two other 
laboratories that focus on biological and chemical threats.
    How will the potential closure of these three laboratories affect 
the CWMD Office's operations?
    Answer. The WROC described above will be the process for managing 
CWMD's operations. S&T will be responsive to requirements generated 
through the WROC process.
    Question 8b. If these laboratories were to close, will the CWMD 
Office assume the responsibility of taking over those laboratories' 
CBRN capabilities? If not the CWMD Office, then who?
    Answer. The CWMD Office will work with DHS S&T, the DHS operational 
components and other National laboratory assets across the interagency 
to identify any priority CWMD R&D activities--and options to accomplish 
these efforts--through its WROC process.
    Question 9. The Chemical Security Analysis Center (CSAC) was not to 
be funded in the President's budget proposal issued earlier this year. 
It is my understanding that CSAC has done substantial research on 
certain chemicals, the results of which have been (1) shared with 
various stakeholders, such as private enterprise, State and local 
governments and (2) used to inform its risk assessments, some of which 
are used by private industry and other Federal customers, such as DHS's 
Chemical Facility Anti-Terrorism Standards (CFATS) program.
    What are your plans for integrating products developed by CSAC if 
the research side of CSAC remains in the Science and Technology 
Directorate and the risk assessment side migrates to CWMD?
    Answer. The CWMD Office will work with DHS S&T and the DHS 
operating components to identify priority CWMD R&D activities--and 
options to accomplish these efforts--through its WROC process.
    Question 10a. In its August 2016 report on a DHS proposal to 
consolidate its Chemical, Biological, Radiological, Nuclear, and 
Explosives (CBRNE) programs, GAO found that DHS did not fully assess 
and document potential problems that could result from consolidation or 
include a comparison of the benefits and costs associated with this 
potential change. GAO recommended that DHS complete, document, and make 
available analyses of key questions related to its consolidation 
proposal.
    For the consolidation that occurred on December 5, 2017, what did 
DHS do to assess and document potential problems that could result from 
consolidation?
    Answer. The Department had a series of meetings at the component-
head level and with interagency partners. The incoming CWMD leadership 
team met with DOD, the FBI and other agencies that have done similar 
reorganizations. The team met with other technical agencies such as 
NNSA and DTRA, had internal and external stakeholder meetings, and 
reviewed years of various plans and proposals for a CWMD-like 
organization. We considered potential internal problems, such as 
affected morale that the reorganization may cause, and continue to take 
steps to mitigate these through proactive communication and employee-
staffed working groups. The acting assistant secretary has managed CWMD 
organizational and capability development in the DOD special operations 
community and the leadership team has decades of experience. All of 
this information informed the Secretary's decision and has been applied 
to assess and document potential problems.
    DHS CWMD leadership regularly engages with its staff and 
stakeholders to identify and resolve potential problems from the 
organizational change; moreover, the Department has heeded the GAO's 
prior recommendation to use, where appropriate, the key mergers and 
organizational practices identified in past reports and audits.\1\
---------------------------------------------------------------------------
    \1\ GAO Report to the Ranking Member, Committee on Homeland 
Security, House of Representatives, Homeland Security--DHS's Chemical, 
Biological, Radiological, Nuclear, and Explosives Program Consolidation 
Proposal Could Better Consider Benefits and Limitations, GAO-16-603 
(Aug. 2016), p. 18.
---------------------------------------------------------------------------
    Question 10b. Did DHS do a comparison of the benefits and costs of 
doing this consolidation?
    Answer. Yes. DHS leadership assessed that significant cost 
avoidances and synergies would be realized through the CWMD 
reorganization. The primary components of the CWMD Office, DNDO and 
OHA, share a number of related lines of effort, functional activities, 
and administrative structures. Bringing them under a unified command 
will allow for sharing of best practices and create new opportunities 
for reform. In particular, leadership in the Department assessed that 
DNDO's successful business model will help inform improvements to the 
chemical and biological defense mission space.
    Question 11a. As authorized in section 516 of the Homeland Security 
Act, the chief medical officer serves as the principal advisor to the 
Secretary and FEMA administrator on medical and public health issues. 
Under the reorganization, the chief medical officer will report to the 
assistant secretary for CWMD.
    When will a permanent chief medical officer be appointed?
    Answer. The process of appointing a permanent chief medical officer 
is currently under way. During the pre-decisional/deliberative phase of 
the appointment process, the Department is unable to comment on the 
administration's final decision or date.
    Question 11b. Can you assure this subcommittee that the CMO will 
retain his or her direct access to the Secretary and FEMA administrator 
under the new CWMD organization, as required by law?
    Answer. Yes. The CMO will retain direct access to the Secretary and 
to the FEMA administrator under the new CWMD Office reorganization. 
These statutorily vested authorities are critical to the mission of the 
CMO. For this reason, in the Technical Drafting Assistance provided to 
the Committee for the CWMD Office, the Department recommended the CMO 
retain direct access authorities to the Secretary and to the FEMA 
administrator, when appropriate.
    Question 12. The chief medical officer will remain in the new CWMD 
Office while the workforce health and medical support functions will 
move to the Management Directorate.
    Will the chief medical officer retain his or her oversight over 
these functions?
    Answer. Yes. It is critical that the functions statutorily vested 
in the CMO continue as part of the CWMD Office, including ensuring the 
Nation's front-line responders are able to prepare for and respond to 
all threats, for which the CMO will provide advice and guidance, as 
appropriate. The CMO's delegated functions, with the exception of 
workforce health functions, will be subsumed into the CWMD Office. This 
adjustment makes the CMO a more agile asset. Rather than being required 
to manage a major office focused only on certain WMD issues, the CMO 
will provide expertise on the full range of critical CWMD defense 
matters and emerging WMD threats of National significance with the 
potential to affect the United States.
    Question 13. How will the CWMD Office work with the Office of 
Intelligence and Analysis to ensure appropriate information sharing of 
CBRN threats with State and local stakeholders?
    Answer. The CWMD Office intends to work very closely with the 
Office of Intelligence and Analysis to support intelligence-driven 
operations to counter WMD threats, by providing timely and actionable 
information to State and local stakeholders, when appropriate. The 
Department is willing to provide more detailed information in a 
Classified setting.
    Question 14. The National Defense Authorization Act for Fiscal Year 
2017 required the completion of a Biodefense Strategy.
    What role will the CWMD Office play in the Department of Homeland 
Security's implementation of the Biodefense strategy once it is 
completed?
    Answer. The new CWMD Office will have a high level of engagement 
during finalization of the strategy and development and oversight of 
the whole-of-Government and implementation plan. The legacy Office of 
Health Affairs had been heavily involved in the development of the 
National Biodefense Strategy, working with the DHS strategy development 
lead in the DHS Office of Strategy, Policy, and Plans, and other 
Federal partners.
    Question 15a. In October, the Harvard Kennedy School Belfer Center 
for Science and International Affairs, published a paper entitled 
``North Korea's Biological Weapons Program: The Known and Unknown,'' in 
which the authors discuss North Korea's intent and capability to 
sustain a biological weapons program.
    What is your view of the threat of biological weapons from North 
Korea?
    Question 15b. Does DHS have adequate resources and authority to 
prepare for and respond to this threat?
    Answer. DHS is unable to provide details on the threat of 
biological weapons from North Korea in an Unclassified document. 
However, the Department is willing to provide more detailed information 
in a Classified briefing to Members and staff of the committee on this 
threat.
 Questions From Honorable Peter T. King for the Department of Homeland 
                                Security
    Question 1. Last December, the President signed the First Responder 
Anthrax Preparedness Act into law. This bill, of which I was the House 
sponsor, requires the Secretary of Homeland Security to establish a 
pilot program to provide anthrax vaccinations to first responders on a 
voluntary basis.
    What is the status of the pilot program?
    Answer. This program is currently unfunded. DHS conducted limited 
preliminary planning, but there has been no pilot program execution.
    Question 2a. The Domestic Nuclear Detection Office's Securing the 
Cities Program provides vital assistance and training to high-risk 
areas around the country to detect and protect against radiological and 
nuclear threats. This program has been invaluable for New York, the top 
terrorist target. As you work to establish the Countering Weapons of 
Mass Destruction Office, we must ensure that successful DNDO programs, 
like Securing the Cities, are maintained.
    How will the creation of the CWMD Office impact the Securing the 
Cities program?
    Answer. In the CWMD Technical Drafting Assistance provided to the 
committee, formal authorizing language for the Securing the Cities 
Program was included. The Technical Drafting Assistance builds on 
successes of the current and on-going Securing the Cities Program by 
proposing its expansion to all WMD threats--chemical, biological, 
radiological, and nuclear. Moreover, the CWMD Technical Drafting 
Assistance proposes expansion of Securing the Cities functions into 
smuggling and conventional supply chain pathways and approaches to 
high-target risk areas, including, but not limited to, the New York 
Metropolitan Area. Consistent with the President's National Security 
Strategy and as an operational support organization, the CWMD Office 
will bolster efforts to defend against all WMD in the Homeland, and 
before the threats reach our borders.
    Question 2b. What are your plans to further expand Securing the 
Cities to additional jurisdictions?
    Answer. The CWMD Office will focus Securing the Cities more toward 
potential WMD pathways and approaches to high-target risk areas. This 
includes applications both in the continental United States as well as 
in supply chain and smuggling pathways into high-target risk 
jurisdictions. The Department looks forward to collaborating with the 
committee to discuss its plans for the Securing the Cities program.
    Question 2c. How will DNDO continue to support and sustain the 
capabilities gained by original jurisdictions, like New York?
    Answer. Legacy DNDO Securing the Cities (STC) support, through 
subject-matter expertise and technical assistance, to original 
jurisdictions like New York will continue. As a support organization, 
the CWMD Office fully intends to support first responders and operators 
in the field--original STC jurisdictions like New York remain critical 
in CWMD's commitment to the men and women on the front lines of our 
counterterrorism mission.
   Questions From Honorable James R. Langevin for the Department of 
                           Homeland Security
    Question 1. The President's DHS S&T budget request for fiscal year 
proposed eliminating funding for a state-of-the-art, one of a kind 
biocontainment laboratory--the National Biological Analysis and 
Countermeasures Center (NBACC) at Fort Detrick, MD. However, Congress 
has taken steps in both the NDAA and appropriations to ensure that this 
capability is not lost.
    Can you elaborate on the impact to our National security and our 
ability to counter biological threats if this facility were to close? 
How has the NBACC supported DHS in countering biological threats?
    Answer. The functions performed at the NBACC, including providing 
reach-back and analytical capabilities, have supported multiple 
departments and agencies responsible for conducting National security 
missions. Should the facility remain operating, the CWMD Office will 
assist S&T in identifying interagency funding sources, developing a 
more efficient operational model, and driving DHS mission requirements. 
Like many WMD-related activities that may seem underutilized when an 
attack does not happen, facilities such as the NBAAC are a key 
component to understanding the impact of an attack, the source of the 
material, and the testing of mitigation strategies. It is not a 
capability that we can build after an attack happens.
    CWMD, as an organization that oversees requirements through the 
WROC process, recognizes the value and support these facilities bring 
to addressing the WMD threats for both DHS and other agencies. 
Understanding the difficult budget decisions that must be made, it is 
just as important that future fiscal matters are informed and balanced 
with mission needs and comparable laboratory capabilities.
    Question 2. In your testimony, you state that you expect the new 
office will allow greater sharing of best practices, particularly 
leveraging successes from DNDO.
    Can you detail these successes and elaborate on how they will be 
applied to the domains of chemical and biological weapons?
    Answer. CWMD has identified significant cost avoidances by merging 
DNDO and OHA functions. Rather than having two offices individually 
managing human capital, acquisitions, information technology, and 
financial needs, the horizontal integration of the CWMD Office creates 
inherent efficiencies. The legacy DNDO model of developing, acquiring, 
and fielding capabilities to operators will be applied across the CBRN 
spectrum. This best practice was previously limited to R/N detection in 
DNDO. By following DNDO's structural model and best practices, legacy 
OHA acquisitions can report to a single product acquisition and 
deployment group, and the same is true with human capital, information 
technology, and financial management reporting to an enterprise 
services directorate.
    Question 3. As I'm sure you're aware, change can be difficult for 
any organization even if it results in positive benefits. To ease these 
challenges, GAO has identified nine key practices for mergers and 
organizational transformation and I appreciate that DHS has adopted 
several of them in this transition, including the creation of an 
implementation team and a communication strategy.
    As we consider moving forward with this reorganization, can you 
detail your implementation time line, cultural barriers that you've 
identified, and your plan for attracting and retaining key talent?
    Answer.
    Implementation timeline:
  <bullet> December 2017.--Initial standing up of the CWMD Office.
  <bullet> January-October 2018.--Continuing engagements with 
        stakeholders and Congress on CWMD mission and strategic 
        outlook.
  <bullet> January-March 2018.--Establish and utilize CWMD-wide Working 
        Groups for all Federal personnel to engage in planning and 
        organizing the programs of CWMD.
  <bullet> October 2018.--Finalizing stages of the CWMD reorganization.
    Staff are adapting to the organizational changes within the new 
CWMD office. Given the importance of addressing employee morale, 
cultural changes, and other stress factors for personnel in a 
reorganization, the CWMD Office leadership have developed a plan to 
communicate mission priorities to all personnel and include Federal 
employees in the programmatic planning process through working groups.
    DHS anticipates better morale--and leadership recruitment and 
retention as a result of the Department's CWMD reorganization. 
Establishing a focal point to implement the Department's WMD defense 
mission cannot only lead to increased mission effectiveness, but also 
increased morale. DHS anticipates that elevating its WMD defense 
efforts with more measurable results will inspire employee engagement. 
In the past, Chemical, Biological, Radiological, and Nuclear (CBRN) 
experts had the incentive to seek out positions at departments and 
agencies where the mission space is more visible. Looking forward, the 
reorganization and mission elevation will better attract and maintain 
key talent.
    Question 4. In your testimony you note that the biological and 
chemical defense strategies have lagged behind the threat landscape.
    What are the threat challenges in these areas that concern you the 
most today, and how will your strategy to address them change under the 
new organization?
    Answer. While DHS is unable to provide details on the WMD threat in 
an Unclassified document, the Department is willing to provide Members 
and staff of the committee a Classified WMD threat briefing.
    Question 5. Can you discuss the trade-offs for including the full 
set of CBRNE (chemical, biological, radiological, nuclear, and 
explosives) in a new office versus including a subset?
    In particular, why were explosives excluded from the office's 
purview?
    Answer. Please see the response to question No. 1.
    Questions From Congressman James R. Langevin for Chris P. Currie
    Question 1. Of the key practices that DHS has not implemented in 
this effort, what needs to be prioritized to ensure a successful and 
efficient reorganization?
    Answer. According to our prior work, implementing large-scale 
change management initiatives, such as mergers and organizational 
transformations, are not simple endeavors and require the concentrated 
efforts of both leadership and employees to realize intended synergies 
and to accomplish the new organizational goals.\1\ Involving employees 
to obtain their ideas and gain their ownership for the transformation 
is a key practice that DHS should prioritize. Implementation steps for 
this practice include using employee teams, involving employees in 
planning, incorporating employee feedback into new policies and 
procedures, and delegating authority to appropriate organizational 
levels. Such steps will be helpful in a consolidated CBRN environment. 
For example, overall employee morale differs among the components to be 
consolidated, as demonstrated by the difference in employee 
satisfaction and commitment scores of DNDO and S&T, making employee 
involvement to gain their ownership for the transformation a key step 
to consider.\2\ Given the critical nature of DHS's CBRN mission, 
prioritizing employee involvement in the transformation would help 
inform the consolidation effort and improve the chances of a successful 
CBRN consolidation.
---------------------------------------------------------------------------
    \1\ GAO-03-669.
    \2\ According to the Partnership for Public Service's Best Places 
to Work in the Federal Government 2015 rankings, employee satisfaction 
and commitment index scores at DNDO and S&T were 71 and 39.5 
respectively. These scores are calculated using responses to three 
different questions in the U.S. Office of Personnel Management's 
Federal Employee Viewpoint Survey.
---------------------------------------------------------------------------
    Question 2. Based on your analysis of previous reorganization 
activities in the Federal Government, what challenges will DHS likely 
face if it proceeds with this transition?
    Answer. In August 2016, we found that DHS's June 2015 CBRNE report 
and related summaries provide some insights into factors considered for 
its consolidation proposal, but did not include associated underlying 
data or methodological information that would illuminate consideration 
of key concerns, such as potential problems that could result from 
consolidation. Component officials we interviewed provided several 
examples of potential problems due to consolidation. For example, 
officials told us that merging staff into one office could result in a 
need for additional support staff to manage day-to-day functions such 
as human resources, contracting, and financial management for a larger 
number of employees. Officials further stated that they may not have 
sufficient staff to complete these mission needs in a consolidated 
CBRNE unit. Additionally, component officials expressed concern over 
the potential allocation of resources in the consolidated office. 
According to these officials, there is a difference between components 
with missions that focus on potential terrorism events that are more 
likely to occur but with limited consequence versus components that 
focus on potential events that are not as likely to occur but have the 
potential to be far more catastrophic. These officials added that 
consolidating these components may complicate resource allocation 
decisions due to the varying degree to which certain CBRNE activities 
are seen as a priority over others. According to a DHS official, Office 
of Policy officials met with two of the five affected CBRNE components 
to determine potential unintended problems and to develop mitigation 
measures. However, not all affected components were included in the 
discussions and the problems and measures were not documented.
    The practices outlined in our prior work are intended to help 
agencies transform their cultures so that the Federal Government has 
the capacity to deliver its promises, meet current and emerging needs, 
maximize its performance, and ensure accountability. We continue to 
believe that providing documented information and analyses used to 
assess the benefits and limitations of its consolidation plan would 
assist DHS in fully demonstrating how its proposal will lead to an 
integrated, high-performance organization. Until DHS completes this 
analysis and documents its findings, we continue to believe that 
potential challenges have yet to be mitigated. A lack of these 
practices within agencies makes it more difficult for them to collect 
the data necessary to calculate precisely the costs and benefits of a 
consolidation. This limitation can increase a consolidation's risk and 
an agency's vulnerability to unintended consequences, such as increased 
costs or heightened stakeholder skepticism.

                                 [all]
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                
</pre></body></html>
